<html>
<title> - AN OVERVIEW OF THE FEDERAL RESEARCH AND DEVELOPMENT BUDGET FOR FISCAL YEAR 2010</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]


 
                       AN OVERVIEW OF THE FEDERAL 
                    RESEARCH AND DEVELOPMENT BUDGET 
                          FOR FISCAL YEAR 2010 

=======================================================================

                                HEARING

                               BEFORE THE

                  COMMITTEE ON SCIENCE AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 14, 2009

                               __________

                           Serial No. 111-26

                               __________

     Printed for the use of the Committee on Science and Technology


     Available via the World Wide Web: http://www.science.house.gov


                               ----------
                        U.S. GOVERNMENT PRINTING OFFICE 

49-452 PDF                       WASHINGTON : 2009 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2250 Mail: Stop SSOP, 
Washington, DC 20402-0001 
























                  COMMITTEE ON SCIENCE AND TECHNOLOGY

                 HON. BART GORDON, Tennessee, Chairman
JERRY F. COSTELLO, Illinois          RALPH M. HALL, Texas
EDDIE BERNICE JOHNSON, Texas         F. JAMES SENSENBRENNER JR., 
LYNN C. WOOLSEY, California              Wisconsin
DAVID WU, Oregon                     LAMAR S. SMITH, Texas
BRIAN BAIRD, Washington              DANA ROHRABACHER, California
BRAD MILLER, North Carolina          ROSCOE G. BARTLETT, Maryland
DANIEL LIPINSKI, Illinois            VERNON J. EHLERS, Michigan
GABRIELLE GIFFORDS, Arizona          FRANK D. LUCAS, Oklahoma
DONNA F. EDWARDS, Maryland           JUDY BIGGERT, Illinois
MARCIA L. FUDGE, Ohio                W. TODD AKIN, Missouri
BEN R. LUJAN, New Mexico             RANDY NEUGEBAUER, Texas
PAUL D. TONKO, New York              BOB INGLIS, South Carolina
PARKER GRIFFITH, Alabama             MICHAEL T. MCCAUL, Texas
STEVEN R. ROTHMAN, New Jersey        MARIO DIAZ-BALART, Florida
JIM MATHESON, Utah                   BRIAN P. BILBRAY, California
LINCOLN DAVIS, Tennessee             ADRIAN SMITH, Nebraska
BEN CHANDLER, Kentucky               PAUL C. BROUN, Georgia
RUSS CARNAHAN, Missouri              PETE OLSON, Texas
BARON P. HILL, Indiana
HARRY E. MITCHELL, Arizona
CHARLES A. WILSON, Ohio
KATHLEEN DAHLKEMPER, Pennsylvania
ALAN GRAYSON, Florida
SUZANNE M. KOSMAS, Florida
GARY C. PETERS, Michigan
VACANCY















                            C O N T E N T S

                              May 14, 2009

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Bart Gordon, Chairman, Committee on 
  Science and Technology, U.S. House of Representatives..........    12
    Written Statement............................................    13

Statement by Representative Ralph M. Hall, Minority Ranking 
  Member, Committee on Science and Technology, U.S. House of 
  Representatives................................................    13
    Written Statement............................................    15

Prepared Statement by Representative Jerry F. Costello, Member, 
  Committee on Science and Technology, U.S. House of 
  Representatives................................................    16

Prepared Statement by Representative Eddie Bernice Johnson, 
  Member, Committee on Science and Technology, U.S. House of 
  Representatives................................................    17

Prepared Statement by Representative Marcia L. Fudge, Member, 
  Committee on Science and Technology, U.S. House of 
  Representatives................................................    18

Prepared Statement by Representative Harry E. Mitchell, Member, 
  Committee on Science and Technology, U.S. House of 
  Representatives................................................    19

                                Witness:

Dr. John P. Holdren, Assistant to the President for Science and 
  Technology; Director of the White House Office of Science and 
  Technology Policy; Co-Chairman of the President's Council of 
  Advisors on Science and Technology
    Oral Statement...............................................    20
    Written Statement............................................    22
    Biography....................................................    29

Discussion.......................................................    30

              Appendix: Answers to Post-Hearing Questions

Dr. John P. Holdren, Assistant to the President for Science and 
  Technology; Director of the White House Office of Science and 
  Technology Policy; Co-Chairman of the President's Council of 
  Advisors on Science and Technology                                 50


 AN OVERVIEW OF THE FEDERAL RESEARCH AND DEVELOPMENT BUDGET FOR FISCAL 
                               YEAR 2010

                              ----------                              


                         THURSDAY, MAY 14, 2009

                  House of Representatives,
                       Committee on Science and Technology,
                                                    Washington, DC.

    The Committee met, pursuant to call, at 2:24 p.m., in Room 
2318 of the Rayburn House Office Building, Hon. Bart Gordon 
[Chairman of the Committee] presiding.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                            hearing charter

                  COMMITTEE ON SCIENCE AND TECHNOLOGY

                     U.S. HOUSE OF REPRESENTATIVES

                       An Overview of the Federal

                    Research and Development Budget

                          for Fiscal Year 2010

                         thursday, may 14, 2009
                          2:00 p.m.-4:00 p.m.
                   2318 rayburn house office building

1. Purpose

    On Thursday, May 14, 2009, the Committee on Science and Technology 
will hold a hearing to examine the Administration's proposed fiscal 
year (FY) 2010 funding for federal research, development, 
demonstration, and commercial application programs, in particular at 
agencies within the jurisdiction of the Committee, and to explore how 
the 2007 COMPETES Act programs within the jurisdiction of the Committee 
are treated in the budget.

2. Witness

Dr. John Holdren is the Assistant to the President for Science and 
Technology and Director of the Office of Science and Technology Policy 
(OSTP). He also serves as Co-Chairman of the President's Council of 
Advisors on Science and Technology. Dr. Holdren is on leave from 
Harvard, where he is the Teresa and John Heinz Professor of 
Environmental Policy at the Kennedy School of Government and Director 
of the Science, Technology, and Public Policy Program at the School's 
Belfer Center for Science and International Affairs.

3. Overview of FY 2010 R&D Budget Request

    The President's FY 2010 budget proposes a total of $147.6 billion 
for research and development (R&D) across all agencies, a $555 million 
or 0.4 percent increase over the 2009 enacted level. This does not 
include any of the estimated $21.5 billion\1\ in R&D funding in the 
American Recovery and Reinvestment Act, which included $10.4 billion 
for the National Institutes of Health (NIH); $3.0 billion for the 
National Science Foundation (NSF); $5.5 billion for Department of 
Energy (DOE); $580 million for the National Institute of Standards and 
Technology (NIST); $1.0 billion for the National Aeronautics and Space 
Administration (NASA); and $830 million for the National Oceanographic 
and Atmospheric Administration (NOAA), all to be spent by the end of FY 
2010.
---------------------------------------------------------------------------
    \1\ This is the total arrived at in the AAAS budget analysis 
(http://www.aaas.org/spp/rd/stim09c.htm#tb), for all federal agencies. 
The Administration budget roll-out documents report a Recovery Act R&D 
total of $18.3 billion. The discrepancy is primarily due to how 
Recovery Act funding for DOE is counted.
---------------------------------------------------------------------------
    The budget would decrease for the `development' end of R&D (much of 
which occurs at the Department of Defense) and increase for basic and 
applied research by $376 million, or 0.6 percent. This is after four 
years of decline in real terms for federal research investments. 
According to Administration documents, the 2010 Budget invests in four 
key R&D priorities:

        1.  Basic sciences at NSF, NIST and DOE's Office of Science--
        keeping those three agencies on a 10-year doubling path;

        2.  Clean energy R&D;

        3.  Biomedical and health research; and

        4.  Safety and Security R&D--including detection and response 
        to natural and manmade threats, biodefense, and nuclear non-
        proliferation.

    Funding for research, development, demonstration, commercial 
application and science, technology, engineering, and mathematics 
(STEM) education activities at agencies and offices under the 
Committee's jurisdiction totals approximately $45 billion in FY 2010, 
not including Recovery Act funding.\2\
---------------------------------------------------------------------------
    \2\ This is just a rough estimate across the agencies/offices under 
S&T (sole or joint) legislative jurisdiction and does not include all 
activities at all agencies to which we might have a claim in the case 
of legislation on those activities.

4. Summary of 2007 COMPETES Act

    The America COMPETES Act (P.L. 110-69) was signed into law by 
President Bush on August 9, 2007. A response to the 2005 National 
Academies' report Rising Above the Gathering Storm, COMPETES seeks to 
ensure U.S. students, teachers, businesses, and workers are prepared to 
continue leading the world in innovation, research, and technology. The 
law implemented recommendations from the Gathering Storm report, and 
specifically:

        <bullet>  Authorizes $33.6 billion over FY 2008-2010 for STEM 
        research and education programs across the Federal Government.

        <bullet>  Keeps research programs at NSF, NIST and the DOE 
        Office of Science on a near-term doubling path;

        <bullet>  Helps to prepare new teachers and provide current 
        teachers with STEM content and teaching skills through NSF's 
        Noyce Teacher Scholarship Program and Math and Science 
        Partnerships Program;

        <bullet>  Expands programs at NSF to enhance the undergraduate 
        education of the future science and engineering workforce, 
        including at two-year colleges;

        <bullet>  Expands early career graduate-level grant programs 
        and provides additional support for outstanding young 
        investigators at NSF and DOE;

        <bullet>  Creates the Technology Innovation Program (TIP) at 
        NIST (replacing the existing Advanced Technology Program or 
        ATP) to fund high-risk, high-reward, pre-competitive technology 
        development with high potential for public benefit;

        <bullet>  Puts the Manufacturing Extension Partnership (MEP), 
        which provides cost-shared technical assistance to small 
        manufacturers to modernize their operations, on a path to 
        doubling over 10 years;

        <bullet>  Establishes an Advanced Research Projects Agency for 
        Energy (ARPA-E), a nimble and semi-autonomous research agency 
        at DOE to engage in high-risk, high reward energy research;

        <bullet>  Includes provisions throughout the bill to help 
        broaden participation by women and minorities in science and 
        engineering fields at all levels; and

        <bullet>  Strengthens interagency planning and coordination for 
        research infrastructure and information technology (i.e., high-
        speed computing).

5. Descriptions of Agency R&D Budgets

National Science Foundation
    The National Science Foundation budget request for FY 2010 totals 
$7.045 billion, $555 million or 8.5 percent more than FY 2009 funding, 
not including the $3.0 billion included for NSF in the Recovery Act. 
The COMPETES Act authorized a total of $8.1 billion for FY 2010. NSF 
provides approximately 22 percent of support for basic research at U.S. 
colleges and universities and is second only to NIH in support for all 
academic research. NSF research, education and infrastructure funding 
is divided into three main accounts: Research and Related Activities, 
Education and Human Resources, and Major Research Equipment and 
Facilities Construction.

            Research and Related Activities (R&RA)
    The Administration's budget would provide $5.73 billion for R&RA in 
FY 2010, an increase of $550 million or 10.6 percent over FY 2009 
funding. Research and Related Activities is made up of six disciplinary 
directorates, in addition to three offices, and a handful of other 
functions. The largest relative increase (12.6 percent) went to the 
Geosciences Directorate (GEO), which funds atmospheric, Earth and ocean 
sciences. Most of NSF's climate change research is supported by GEO. 
The Biological Sciences Directorate (BIO) also saw a large (11.8 
percent) increase. NSF accounts for two-thirds of all federal support 
for non-medical biological sciences research. The R&RA request stands 
in contrast to the previous Administration's American Competitiveness 
Initiative, which prioritized the physical sciences and engineering. 
The Social, Behavioral and Economic Sciences Directorate (SBE) saw the 
smallest (6.9 percent) increase. All six directorates were treated 
equally in the Recovery Act, which provided a total of $2.5 billion for 
R&RA.

            Education and Human Resources (EHR)
    The Education and Human Resources Directorate, which funds 
education and broadening participation programs at all levels ``from K 
to Gray,'' would be funded at $858 million in FY 2010, an increase of 
only $12.5 million or 1.5 percent over FY 2009 funding. When asked at a 
budget briefing last week why EHR funding remains essentially flat for 
FY 2010, Dr. Cora Marrett, Acting Deputy Director of NSF, responded 
that funding for EHR alone represents an incomplete picture of the 
education and training programs distributed across NSF. For example, 
while the EHR contribution to Graduate Research Fellowships decreases 
by $4.4 million, the R&RA contribution increases by $11.4 million.
    In the COMPETES Act, the Committee focused on the teacher training 
programs at NSF, including the Noyce Teacher Scholarship Program and 
the Math and Science Partnerships Program (MSP). In the FY 2010 budget, 
Noyce would be funded at $55 million, the same level as in FY 2009, and 
MSP would be funded at $58.2 million, a 4.6 percent decrease from the 
$61 million provided in FY 2009. Both Noyce and MSP received 
considerable funding in the Recovery Act ($60 million and $25 million, 
respectively). In his testimony before the CJS Appropriations 
Subcommittee earlier this year, Chairman Gordon requested that Noyce be 
funded at $70 million in FY 2010.
    Another education program highlighted in the COMPETES Act for its 
effectiveness and importance is the Advanced Technological Education 
(ATE) program. The ATE program funds two-year institutions in 
partnership with local industry to build or improve upon STEM programs 
focused on training technicians for the high-tech jobs in that region. 
The request for ATE in the FY 2010 budget is $64 million, the same 
level authorized in COMPETES and an increase of $12.4 million or 24 
percent over FY 2009 funding. Finally, NSF's collection of programs to 
broaden participation in STEM fields would be funded at $719 million in 
FY 2010, a $48 million or 6.2 percent increase over FY 2009.

            Major Research Equipment and Facilities Construction 
                    (MREFC)
    The MREFC request for FY 2010 is $117 million, a decrease of $35 
million from FY 2009 funding. The reason for this substantial decrease 
is the $400 million provided to MREFC in the Recovery Act to initiate 
construction on three projects: The Alaska Region Research Vessel, the 
Advanced Technology Solar Telescope, and the Ocean Observatories 
Initiative. There are no additional MREFC new starts in the FY 2010 
budget request. Funding will go toward ongoing construction projects.

National Institute of Standards and Technology
    The Administration's FY 2010 budget requests $846.1 million for 
NIST, a $27.1 million or 3.3 percent increase over FY 2009 funding. 
Specifically, the budget would provide $534.6 million for NIST's core 
scientific and technical research and services; $117 million for 
construction of research facilities; $124.7 million for the 
Manufacturing Extension Partnership (MEP); and $69.9 million for the 
Technology Innovation Program (TIP). The Bush Administration spent 
years trying to eliminate both MEP and TIP.

            Research and Facilities
    COMPETES put the internal research laboratory account on a ten-year 
path to doubling, authorizing $585 million in FY 2010. The current 
Administration, similar to the previous Administration, also intends to 
keep NIST research on a 10-year doubling path. The $19 million increase 
in the construction budget would fund renovation work at the NIST 
campuses in both Gaithersburg and Boulder and expansion and reliability 
improvements at the NIST Center for Neutron Research. NIST also 
received $580 million in Recovery Act funding: $220 million for 
research and $360 million for construction and maintenance.

            Manufacturing Extension Partnership (MEP)
    The MEP program is a public/private partnership in all 50 states 
and Puerto Rico that provides technical assistance for small 
manufacturers to modernize their operations and adapt to foreign 
competition. MEP Centers are supported by equal contributions from 
federal funds, State funds, and client fees. In FY 2006, MEP clients 
reported increased or retained sales of $6.76 billion, cost savings of 
over $1.1 billion, new client investment of over $1.6 billion, and more 
than 51,000 jobs created or retained. The COMPETES Act put the MEP 
program on ten-year path to doubling, authorizing $132 million in FY 
2010. The FY 2010 budget request represents a $14.7 million or 13.4 
percent increase over FY 2009 funding.

            Technology Innovation Program (TIP)
    The Technology Innovation Program was created in COMPETES to 
replace the Advanced Technology Program (ATP). TIP awards cost-shared 
grants to small companies and joint ventures for the development of 
high-risk, high-reward technologies that meet critical national needs. 
The FY 2010 budget request represents a $5 million or $75 million 
increase over FY 2009 funding.

Department of Energy

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


            Advanced Research Projects Agency for Energy (ARPA-E)
    The FY 2010 budget proposes $10 million for the Energy 
Transformation Acceleration Fund to be used solely for the 
establishment of the Advanced Research Projects Agency for Energy, or 
``ARPA-E.'' ARPA-E is a new program authorized in the COMPETES Act 
designed to sponsor high-risk, high-payoff technology R&D projects with 
universities, the private sector, and National Labs. Modeled on the 
defense agency, DARPA, this new program will operate under a very flat 
organizational structure with limited overhead expenses and no research 
facilities of its own. Program Managers will report to the Director, 
who will report directly to the Secretary. The Department is in the 
process of recruiting a Director and the first round of Program 
Managers and support personnel.
    The $10 million requested for FY 2010 would be used for Program 
Direction expenses, and follows on $15 million appropriated in the FY 
2009 Omnibus, and $400 million provided in Recovery Act. Program 
Direction typically includes expenses such as salaries, equipment, 
office leasing, travel, contractor services, legal and financial 
management, and technology transfer. When added to the existing $415 
million, this would allow for the initial start-up costs and 
approximately two years of full operations. ARPA-E has already issued a 
Funding Opportunity Announcement for $150 million, with specific 
project funding packages ranging from $500,000 to $20 million.

            Energy Innovation Hubs
    In FY 2010 DOE proposes to fund eight Energy Innovation Hubs at a 
total of $280 million to support cross-disciplinary R&D focused on the 
barriers to transforming new energy technologies into commercially 
deployable materials, devices, and systems. The aim of these Hubs will 
be to advance promising areas of energy science and technology 
identified by the Secretary from their early stages of research to the 
point that the risk level will be low enough for industry to deploy 
into the marketplace. Another goal is to create research environments 
similar to the industrial laboratories that existed decades ago, such 
as Bell Labs, where significant resources were dedicated to large teams 
solving specific problems for several years without the need to spend 
large portions of time applying for new funding. The budget for each 
will be ?$30 million per year for five years, none of which may be 
spent on new buildings, and after which each will be either recompeted 
or terminated. Each Office in DOE that supports ongoing energy R&D 
programs would steward at least one Hub.

            Office of Science
    The Office of Science (SC) request for FY 2010 is $4.94 billion, an 
increase of $184 million, or 3.9 percent over FY 2009 funding. SC 
supports large-scale research programs in materials science for energy 
applications, climate science, biofuels, carbon management, advanced 
computing, fusion energy, high-energy physics, and nuclear physics. It 
also oversees 10 National Labs and provides the U.S. research community 
with state-of-the-art user facilities. The request continues support 
for the 46 Energy Frontier Research Centers recently awarded to various 
university, Lab, and industry collaborations on advanced energy 
research topics. The budget of each of these Centers will be $2-5 
million per year. It also maintains support for the U.S. contribution 
to the ITER international fusion project. Two new Energy Innovation 
Hubs are proposed in FY 2010 focusing on new methods of electrical 
energy storage and the creation of fuels directly from sunlight without 
the use of plants or microbes. SC received an additional $1.6 billion 
of funding in the Recovery Act, which will be used to support long-
deferred lab infrastructure modernization and instrumentation upgrades, 
as well as better utilization of current facilities and a larger 
fraction of high-quality research proposals.

            Office of Energy Efficiency and Renewable Energy (EERE)
    The FY 2010 Energy Efficiency and Renewable Energy (EERE) request 
is $2.32 billion, an increase of $140 million, or 6.4 percent over the 
FY 2009 appropriation. EERE's activities promote the development and 
use of clean, reliable, and cost-effective energy efficiency and 
renewable energy technologies. Every program within EERE, except the 
Fuel Cell Technologies (formerly Hydrogen Technology) and the Water 
Power programs, received an increase in their programmatic funding. The 
EERE request also includes two Hubs for a total of $70 million; one 
will focus on better integration of systems, materials and designs into 
buildings and the other will focus on discovering new concepts and 
materials needed for solar to electricity conversion. This portfolio of 
investments will build upon the initiatives funded by the Recovery Act, 
which provided $2.5 billion for R&D in EERE.
    EERE will also launch a new joint DOE-NSF STEM education and 
workforce initiative called RE-ENERGYSE, funded at $115 million in FY 
2010, to educate thousands of students at all levels in the fields 
contributing to the fundamental understanding of energy science and 
engineering systems.

            Office of Fossil Energy (FE)
    The FY 2010 funding request for fossil energy R&D in the Office of 
Fossil Energy (FE) is $617.6 million, compared to $876.3 million in FY 
2009. In particular, the request for coal programs is $404 million, 
which represents a $288.5 reduction from FY 2009. The request maintains 
the FY 2009 funding level for fuels and power systems research; 
however, it does not provide any demonstration funds due to the $3.4 
billion provided in the Recovery Act for carbon capture and storage 
(CCS) demonstrations. The existing demonstration program, the Clean 
Coal Power Initiative (CCPI), will expand and extend its current Round 
III solicitation for CCS demonstrations using the $800 million provided 
in the Recovery Act, and zero additional funds are requested. Funding 
for Carbon Sequestration would increase by $30 million to $180 million 
for additional site selection and characterization as well as related 
work on regulatory permits and community outreach for DOE's large-scale 
geologic carbon storage tests under the Regional Partnership Program. 
The FE request also includes a Hub for CCS that will focus on advancing 
new capture and separation approaches to dramatically reduce the energy 
penalty and costs associated with CO<INF>2</INF> capture.

            Office of Nuclear Energy (NE)
    The Office of Nuclear Energy (NE) is funded from two appropriations 
accounts: Nuclear Energy and Other Defense Activities. Within these two 
accounts, the President is requesting a total of $844.6 million for NE 
activities in FY 2010, a decrease of $513 million from FY 2009 funding. 
This decrease of 38 percent is due primarily to a shifting of the 
funding request for the mixed oxide fuel fabrication facility (funded 
at $487 million in FY 2009) back to the National Nuclear Security 
Administration.
    NE conducts R&D on nuclear energy generation, security, materials, 
systems, safety, and waste management technologies and tools. The FY 
2010 request for NE R&D is $403 million, a $112 million decrease that 
reflects a cut in the Nuclear Power 2010 program from $177.5 million to 
$20 million. The remaining funds in this account will be used to 
complete support of industry interactions with the Nuclear Regulatory 
Commission for development of licensing demonstration activities. Fuel 
cycle R&D, on the other hand, would increase $47 million to $192 while 
undergoing a significant shift away from near-term demonstration and 
toward longer-term, science-based transformational R&D focused on waste 
storage and disposal. This increase also includes the initiation of a 
Hub for Extreme Materials Research. A second Hub is proposed to focus 
on providing validated advanced modeling and simulation tools necessary 
to enable significant change in how the U.S. designs and licenses 
nuclear power and fuel cycle technologies, which may improve the 
performance and reduce the costs of new nuclear facilities. The NE 
budget also includes $203 million for management of the Idaho National 
Lab and $83 million for safeguards and security at the Lab.

            Office of Electricity Delivery and Energy Reliability (OE)
    The Office of Electricity Delivery and Energy Reliability (OE) is 
charged with managing programs to modernize the electric grid, enhance 
security and reliability of the energy infrastructure, and facilitate 
recovery from disruptions to our energy supply. The FY 2010 request 
includes $208 million for these activities, a 52 percent increase from 
FY 2009 funding levels. This significant funding increase will enhance 
R&D efforts on energy storage, smart grid technologies, and cyber 
security needs. In particular, the Clean Energy Transmission and 
Reliability program, funded at $42 million, will develop advanced real-
time grid monitoring technologies and accelerate research on advanced 
cables and conductors. The FY 2010 request includes $67 million for 
Smart Grid R&D and will establish a Grid Materials, Devices and Systems 
Hub. The FY 2010 request also includes $15 million for R&D on energy 
storage materials and devices and $50 million for Cyber Security for 
Energy Delivery Systems. This is in addition to $4.5 billion provided 
to OE in the Recovery Act, which will be used to fund demonstration 
projects, development of inter-operability standards, and matching 
grants to deploy smart grid technologies.

National Aeronautics and Space Administration\3\
---------------------------------------------------------------------------
    \3\ The Full Committee will hold a separate hearing to review the 
NASA budget request on May 19.

            Overview
    The FY 2010 budget request for NASA is $18.686 billion. That 
represents a 5.1 percent increase over the FY 2009 appropriation. The 
Recovery Act includes an additional $1.0 billion in funding for NASA. 
For the years FY 2011 through FY 2014: the budget would decline to 
$18.6 billion in FY 2011 (a 0.3 percent decrease), decrease another 0.1 
percent in FY 2012, and remain flat at that level until FY 2014 when it 
would receive a slight (1.3 percent) increase to $18.9 billion. 
Including Recovery Act funding, the total funding that would be made 
available for NASA over the period FY 2009-14 is essentially the same 
as was projected in the Bush budget plan for that same period--the main 
difference is that the Obama budget cuts out-year funding for 
Exploration and shifts that money to Earth Science and to expenses 
related to Shuttle retirement and ISS crew and cargo resupply 
requirements. It also augments Exploration funding in FY 2009 and 2010 
for Constellation-related work. The Bush Administration funding 
projections are relevant because they represent the latest OMB funding 
guidance that NASA was following in planning its programs prior to the 
release of the FY 2010 budget request.
    The FY 2010 budget request appears to be responsive to the NASA 
Authorization Act of 2008 (P.L. 110-422) in a number of key areas: 
augmentation of NASA's Earth Science budget to make progress on Decadal 
Survey missions; augmentation of NASA's aeronautics budget and 
initiation of work on ``green aircraft'' technologies as well as focus 
on NextGen R&D needs. The budget request adds funding for the Shuttle 
mission to deliver the Alpha Magnetic Spectrometer to the International 
Space Station (ISS) per the Authorization Act's direction, and it 
anticipates completing all of the Shuttle flights to assemble the ISS, 
again per the direction of the Act. It should also be noted that $30 
million in funding is included in the DOE budget to restart the 
production of Plutonium 238 for NASA's and other missions, which was 
another issue addressed in the NASA Authorization Act. However, the 
budget request's treatment of NASA's Exploration Systems programs--
particularly in terms of the five-year budget plan for Exploration--is 
not consistent with the NASA Authorization Act's direction to 
accelerate the Orion and Ares I projects and instead removes about $3.1 
billion from the out-year funding profile for Exploration Systems over 
the years FY 2009-2013. At the same time the budget request retains the 
goal of returning Americans to the Moon by 2020.

            Human Space Flight Review
    As part of the submission of its FY 2010 NASA budget request, OSTP 
Director Holdren announced that the Obama Administration was asking Mr. 
Norman Augustine to chair an independent review of NASA's planned human 
space flight activities. The stated goal of the review is ``to ensure 
that the Nation is pursuing the best trajectory for the future of human 
space flight--one that is safe, innovative, affordable, and 
sustainable.'' The panel is to report its results by August of this 
year. According to Dr. Holdren's May 7th letter to NASA's Acting 
Administrator:

         ``The review should aim, specifically, to identify and 
        characterize a range of options that spans the reasonable 
        possibilities for continuation of U.S. human space flight 
        activities beyond retirement of the Space Shuttle. Results and 
        supporting analysis should be provided to involved 
        Administration agencies and offices in sufficient time to 
        support an August 2009 decision on the way forward. The 
        identification and characterization of options should be 
        cognizant of--and should address the implications for--the 
        following objectives: (1) expediting a new U.S. capability to 
        support utilization of the International Space Station; (2) 
        supporting missions to the Moon and other destinations beyond 
        low Earth orbit; (3) stimulating commercial space flight 
        capabilities; and (4) fitting within the current budget profile 
        for NASA exploration activities.''

Environmental Protection Agency
    The FY 2010 budget request for the Environmental Protection Agency 
(EPA) is $10.5 billion, approximately $2.9 billion more than the FY 
2009 enacted budget of $7.6 billion. The bulk of the increase is 
derived from additional funds for State and Tribal Assistance Grants, 
the account that funds maintenance and upgrading of wastewater 
treatment infrastructure across the Nation. The President's FY 2010 
proposal for EPA's Science and Technology (S&T) programs is $868.8 
million. This includes $842 million in the S&T program account and a 
transfer of $26.8 million from the Superfund account to support 
Superfund-related research. This request reflects a six percent 
increase from the FY 2009 enacted level of $816 million, which also 
included $26 million for Superfund research. The increase in funding is 
spread across most EPA research areas including air quality, water 
quality, climate, human health and ecosystems, land protection, 
sustainability, toxics, and homeland security.

National Oceanic and Atmospheric Administration
    The National Oceanic and Atmospheric Administration (NOAA) provides 
daily weather forecasts, severe storm warnings, climate monitoring, 
coastal restoration, and various services that support marine commerce. 
NOAA uses research and advanced instrumentation to provide citizens, 
planners, emergency managers and other decision-makers with reliable 
information. The FY 2010 budget request includes almost $4.5 billion in 
discretionary appropriations for the agency, an increase of $110 
million over FY 2009 funding levels. This will enable NOAA to make the 
investments required to improve forecasting, further our understanding 
of climate and weather patterns, and to better manage our coastal and 
ocean resources. Specifically, the National Weather Service and Oceanic 
and Atmospheric Research would be held essentially flat at $964 million 
and $405 million, respectively, but the National Environmental 
Satellite, Data, and Information Service would increase by $250.6 
million, to $1.43 billion. In addition, NOAA received $830 in Recovery 
Act funds, of which $600 million will be invested in construction and 
repair of NOAA facilities, ships and equipment, to improve weather 
forecasting, to support satellite development and to support 
supercomputing capability and climate data record development--critical 
to improving climate modeling and to continuing research into ways to 
mitigate climate change.

Department of Homeland Security

            Science and Technology Directorate
    The FY 2010 funding request for the DHS Science and Technology 
Directorate is $968.4 million, a $35.8 million or 3.8 percent increase 
from FY 2009 funding. An increase of $16.3 million for the Transition 
office will support the efforts of a First Responder Capstone 
Integrated Product Team (IPT). This new IPT was created to address the 
concerns of the first responder community about the direction of 
research efforts and the resulting products. An increase of $6.6 
million in the Command, Control, and Inter-operability office is for 
research in cyber security. In general, the allocation of funds across 
the S&T Directorate is according to threat estimations that only 
consider the impact of a threat, not the likelihood. There is an 
ongoing call for a comprehensive risk assessment to be used to guide 
the allocation of funds.

            Domestic Nuclear Detection Office
    The FY 2010 funding request for DHS's Domestic Nuclear Detection 
Office (DNDO) is $366.2 million, a $148 million or 29 percent decrease 
from FY 2009 funding. This significant decrease is due to the 
elimination of funding for Systems Acquisition ($153.5 million in FY 
2009) as DNDO strives to spend down uncommitted funds from FY 2009 and 
transition to a different model for acquiring radiation detection 
equipment. Also cut are the funds for the acquisition and deployment of 
the Advanced Spectroscopic Portal (ASP) monitors until further testing 
can validate the technology. However, the DNDO research budget received 
a modest increase of $3.3 million or one percent, to $326.5 million.

Federal Aviation Administration: R&D and NextGen Activities
    The Federal Aviation Administration (FAA) carries out a range of 
research, development, and demonstration programs, including those 
associated with the NextGen, a joint effort between FAA, NASA, and the 
Departments of Defense, Homeland Security and Commerce that will 
transform the entire national air transportation system. NextGen will 
gradually allow aircraft to safely fly more closely together on more 
direct routes, reducing delays, and providing benefits for the 
environment and the economy through reductions in carbon emissions, 
fuel consumption, and noise.
    FAA is requesting $180 million in FY 2010 for the Research, 
Engineering, and Development (RE&D) account, an increase of $9 million 
over FY 2009 enacted. FAA's funding for NextGen-related programs in FY 
2010 will be provided by three accounts, namely Facilities & Equipment 
($790 million), RE&D ($65 million), and Operations ($9 million) for a 
total of approximately $865 million. This is an increase of almost $170 
million (24 percent) over that enacted for FY 2009. According to FAA, 
the requested budget allows NextGen to continue on schedule, enabling 
the agency to successfully develop NextGen capabilities and acquire 
NextGen transformational programs.

Department of Transportation
    The President's FY 2010 budget request for the Research and 
Innovative Technology Administration (RITA) at the Department of 
Transportation is $1 million above the FY 2009 request of $40 million. 
The $1 million increase is requested for the Bureau of Transportation 
Statistics, within RITA. The role of RITA is to coordinate research 
across DOT. In FY 2009, the Federal Highway Administration funded $258 
million in surface transportation research, development, technology 
transfer, and training and education, with an additional $103 million 
for intelligent transportation systems, and $73.9 million for 
university transportation centers. However, the Federal Highway 
Administration has not included proposed R&D funding in its FY 2010 
request, stating that it is in the process of developing a 
comprehensive approach to surface transportation reauthorization.

6. Function of the Office of Science and Technology Policy

    Congress created OSTP, including the position of its Director, 
within the Executive Office of the President (EOP) in 1976. The 1976 
law (P.L. 94-282) states that ``the Office shall serve as a source of 
scientific and technological analysis and judgment for the President 
with respect to major policies, plans, and programs of the Federal 
Government.'' More specifically, OSTP's responsibilities include:

        <bullet>  Advising the President and others within the EOP on 
        the impacts of S&T on domestic and international affairs;

        <bullet>  Leading the interagency effort to develop and 
        implement S&T policies and budgets;

        <bullet>  Coordinating with private sector to ensure that 
        federal investments in S&T contribute to our economic 
        prosperity, sustainability and national security;

        <bullet>  Building partnerships among Federal, State and local 
        governments, other countries and the scientific community; and

        <bullet>  Evaluating the scale, quality and effectiveness of 
        federal efforts in S&T;

        <bullet>  Managing the National Science and Technology Council 
        (NSTC).

    OSTP does not have any programmatic budget authority. Their FY 2010 
budget request is only $6 million--to fund staff and operations. Total 
OSTP staff peaked near 100 during the Clinton Administration: 
approximately 20 were career staff, another 10 political staff, and the 
remainder Agency detailees and fellows. The Bush OSTP total was never 
greater than 70.
    Chairman Gordon. This hearing will come to order, and good 
afternoon and welcome to today's hearing to review the 
Administration's Fiscal Year 2010 Research and Development 
Budget, and I would like to begin today by congratulating Dr. 
Holdren on your new position, and thank you for the excellent 
work you have done in planning for aggressive new science and 
technology policies and budgets.
    I also want to congratulate you on your strong leadership 
role on science integrity. It is very much welcomed.
    We just received the budget a week ago, so we are still 
absorbing the details, but so far I am impressed that President 
Obama has committed the resources to back up his eloquent words 
about the importance of science to our society. Even before his 
inauguration the President called me, and the first thing he 
said was, ``I am a science guy.'' And he clearly has affirmed 
that two weeks ago in his unprecedented speech before the 
National Academies and last week in his research and 
development budget proposal.
    So far this year this committee has reported out 
legislation on STEM education, nanotechnology, information 
technology, water resources, electronics recycling, design of 
green buildings, and international cooperation. Every one of 
those bills is bipartisan and all but two have already passed 
the House.
    What we share or what they share in common is that they 
address broad, multi-disciplinary, multi-sector issues that 
require resources, leadership, and planning across several and 
often a dozen or more of our federal agencies. President Obama 
said in his inaugural address that it is not about bigger or 
smaller government, it is about smarter government. The 
American Recovery and Reinvestment Act is providing funds to 
help us work smarter, but we are facing tough budget times, and 
we won't always have new money at hand. That is why we must 
make more efficient and effective use of the limited resources 
we have to tackle these difficult issues.
    And that is where Dr. Holdren and OSTP come in. I know we 
have been putting a lot of responsibilities on you in our 
legislation, Dr. Holdren, but we will try to get you more 
resources so you and your able staff can carry out those 
duties.
    But I also want to assure you and remind everyone else that 
the burden is not entirely on OSTP. These enormous tasks we 
will confront such as strengthening STEM education and 
improving management of our water resources, require leadership 
and willingness to cooperate, coordinate, and share information 
on the part of many federal agencies. A lot of opportunities to 
use science and technology to tackle our nation's greatest 
challenges were neglected or seem to have fallen between the 
cracks in the last several years.
    So I know that Dr. Holdren and many other fine scientists 
and leaders that President Obama has appointed to senior 
positions in the Administration will take this task to heart, 
and I am optimistic that they will succeed in helping us to 
turn the tide on many of these challenges.
    I look forward to a good discussion about the President's 
proposal for research and development funding in the next 
year's budget and how funding will be targeted to address the 
challenges we face.
    And the Chairman now recognizes Mr. Hall for his opening 
statement.
    [The prepared statement of Chairman Gordon follows:]
               Prepared Statement of Chairman Bart Gordon
    Good afternoon, and welcome to this hearing to review the 
Administration's fiscal year 2010 research and development budget.
    I'd like to begin today by congratulating Dr. Holdren on your new 
position, and thank you for the excellent work you have done in 
planning for aggressive new science and technology policies and 
budgets. I also want to congratulate you on taking a strong leadership 
role on science integrity. You are setting a new and better tone 
regarding the role of science in policy-making. This country has a lot 
of catching up to do, and I know the task will not be easy.
    As you all know, we just got the budget a week ago, so we are still 
absorbing the details. But so far I am impressed that President Obama 
has committed the resources to back up his eloquent words about the 
importance of science to our society.
    Even before his inauguration, President Obama called me up and 
said, ``I'm a science guy.'' And he clearly affirmed that two weeks ago 
in his unprecedented speech before the National Academies, and last 
week in his research and development budget proposal.
    So far this year, this committee has reported out legislation on 
STEM education, nanotechnology, information technology, water 
resources, electronics recycling, design of green buildings, and 
international cooperation. Every one of those bills is bipartisan, and 
all but two have already passed the House. What they share in common is 
that they address broad, multi-disciplinary, multi-sector issues that 
require resources, leadership, and planning across several--and often a 
dozen or more--of our federal agencies.
    President Obama said in his inaugural address that it's not about 
bigger or smaller government; it's about smarter government. The 
American Recovery and Reinvestment Act is providing funds to help us 
work smarter, but we are facing tough budget times and we won't always 
have new money at hand. That's why we must make more efficient and 
effective use of the limited resources we have to tackle these 
difficult issues.
    That is where Dr. Holdren and OSTP come in. I know we've been 
putting a lot of responsibilities on you in our legislation, Dr. 
Holdren, and we will try to get you more resources so you and your able 
staff can carry out all of these duties.
    But I also want to assure you, and remind everybody else that the 
burden is not entirely on OSTP. These enormous tasks we confront, such 
as strengthening STEM education and improving management of our water 
resources, require leadership and willingness to coordinate, cooperate 
and share information on the part of many federal agencies.
    A lot of opportunities to use science and technology to tackle our 
nation's greatest challenges were neglected or just seemed to fall 
between the cracks in the last several years. I know that Dr. Holdren 
and the many other fine scientists and leaders that President Obama has 
appointed to senior positions in his Administration take this task to 
heart, and I am optimistic that they will succeed in helping us to turn 
the tide on many of these challenges.
    I look forward to a good discussion about the President's proposal 
for research and development funding in next year's budget, and how 
that funding will be targeted to address the challenges we face.

    Mr. Hall. I thank you, Mr. Chairman, as usual for calling 
this hearing to review the Administration's Fiscal Year 2010 
research and development budget and related science and 
technology policy priorities. I think it is very important, and 
Dr. Holdren, I would like to welcome you here today and 
congratulate you. I think I congratulated you on your 
appointment as President Obama's Science Advisor and Director 
of OSTP.
    As you probably know this committee has long had a close 
and productive working relationship with OSTP. I hope and 
expect that relationship to continue under your leadership in 
the new Administration, and I really look forward to working 
with you. I have heard good things about you, and I haven't 
listened to any bad things about you, and I hope I don't hear 
any bad things from you today.
    Today's hearing obviously covers a great deal of ground. I 
will make just a few brief comments on the budget that the 
President delivered to us last week, one positive, one 
negative, and one that is a big question mark.
    First of all, the positive: Dr. Holdren, I want to commend 
you and President Obama for continuing the commitment initiated 
by President Bush and the Committee of the 109th Congress and 
enacted by the last Congress in the America COMPETES Act to 
double-funding in key areas of basic research, most important 
innovation and long-term economic competitiveness.
    Now, this has long been a priority of mine and of many of 
us here and certainly of our good Chairman, as well as others 
on the Committee. So for you to pick up where the last 
Administration left off truly cements this, I think, as an 
issue with deep bipartisan support, and that is what I think 
the President is looking for. This will undoubtedly make our 
goal of achieving the doubling significantly easier.
    Now, second, the negative: I am very concerned about the 
direction of our Human Space Flight Program at NASA. While NASA 
has made tremendous progress over the last five years, it still 
is on a path to retire the Space Shuttle without having 
developed its replacement vehicle and launch capabilities. 
Further, the budget reduces the out-year funding for the 
constellation system by more than $3 billion, and even though 
we are more than 100 days into this Administration, the 
President has still not appointed a head of NASA.
    I am sure he has his reasons for that, but it seems to me 
that we need someone to start working with and to start trying 
to see if we can't have a bipartisan thrust.
    Dr. Holdren, I recognize and appreciate that you have 
ordered a review of human space flight plans, and I commend you 
for tapping Norm Augustine. My gosh, what a terrific American 
and how you got him to do that, and I think you pleased 
everybody that knows anything about him. And you got him to 
head that review.
    But I have to register my strong concern with both the 
budget gap and the leadership gap at NASA, and I hope you will 
work to close both as soon as possible.
    Third, the question mark: As we all know just two weeks ago 
President Obama announced a great--to great fanfare a goal to 
devote, ``more than three percent of our gross domestic product 
to research and development.'' This is an aggressive goal that 
warrants full consideration by this committee and others.
    Unfortunately, though, the budget and testimony before us 
today includes no mention of it whatsoever. So I hope to learn 
from Dr. Holdren, from you, the details regarding how and when 
the Administration plans to achieve this goal, especially since 
the President's R&D budget request for next year is essentially 
flat.
    Last, I want to take the opportunity to reiterate my 
concerns with the direction the President is taking us on 
energy policy, which, of course, includes a significant S&T 
component with which this committee is involved. And the 
Chairman and I are both on committees that are heavy on energy 
with Science, Space, and Technology and the Energy and Commerce 
Committee.
    From actively opposing expanded energy exploration and 
production to cutting funding for fossil fuels R&D to 
aggressively pursuing increased taxes through a cap-and-trade 
regime, the costs of which are massive and certain, while the 
benefits are minimal and highly uncertain. I am afraid the new 
Administration has come out of the gate with its energy policy 
on backwards.
    Dr. Holdren, I know you are going to be a key player at the 
White House and foreman in advancing this policy as we go 
forward. So I am eager to work closely with you to identify 
some areas where we can work together. I don't know any other 
way than to be plain with you, and maybe I can even help to 
change your mind on a few things. I hope so.
    Mr. Chairman, I thank you for holding this hearing, I 
think. I believe I do, and I look forward to a productive 
discussion. Yield back.
    [The prepared statement of Mr. Hall follows:]
           Prepared Statement of Representative Ralph M. Hall
    Thank you Chairman Gordon for calling this hearing to review the 
Administration's FY 2010 Research and Development (R&D) Budget and 
related science and technology policy priorities.
    Dr. Holdren, I would like to welcome you here today and 
congratulate you on your appointment as President Obama's Science 
Advisor and Director of OSTP. As you probably know, this committee has 
long had a close and productive working relationship with OSTP. I hope 
and expect that relationship to continue under your leadership in the 
new Administration, and I look forward to working with you.
    Today's hearing obviously covers a great deal of ground, so I will 
make just a few brief comments on the budget that the President 
delivered to us last week--one positive, one negative, and one that is 
a big question mark.
    First of all, the positive: Dr. Holdren, I want to commend you and 
President Obama for continuing the commitment initiated by President 
Bush and this Committee in the 109th Congress--and enacted by the last 
Congress in the America COMPETES Act--to double funding in key areas of 
basic research most important to innovation and long-term economic 
competitiveness. This has long been a priority of mine and Chairman 
Gordon as well as others on this committee, so for you to pick up where 
the last Administration left off truly cements this as an issue with 
deep bipartisan support. This will undoubtedly make our goal of 
achieving the doubling significantly easier.
    Second, the negative: I am very concerned about the direction of 
our human space flight program at NASA. While NASA has made tremendous 
progress over the past five years, it is still on a path to retire the 
Space Shuttle without having developed its replacement vehicle and 
launch capabilities. Further, this budget reduces the out-year funding 
for the Constellation system by more than $3 billion, and even though 
we are more than a hundred days into the Administration, the President 
has still not appointed a head of NASA. Dr. Holdren, I recognize and 
appreciate that you have ordered a review of human space flight plans, 
and I commend you for tapping Norm Augustine to head that review, but I 
have to register my strong concern with both the budget gap and the 
leadership gap at NASA, and I hope you will work to close both as soon 
as possible.
    Third, the question mark: As we all know, just two weeks ago, 
President Obama announced to great fanfare a goal to devote ``more than 
three percent of our gross domestic product to research and 
development.'' This is an aggressive goal that warrants full 
consideration by this committee and others. Unfortunately though, the 
budget and testimony before us today include no mention of it 
whatsoever, so I hope to learn from Dr. Holdren the details regarding 
how and when the Administration plans to achieve the goal, especially 
since the President's R&D budget request for next year is essentially 
flat.
    Last, I want to take the opportunity to reiterate my concerns with 
the direction the President is taking us on energy policy, which of 
course includes a significant S&T component with which this committee 
is involved. From actively opposing expanded energy exploration and 
production, to cutting funding for fossil fuels R&D, to aggressively 
pursuing increased taxes through a ``cap-and-trade'' regime--the costs 
of which are massive and certain while the benefits are minimal and 
highly uncertain--I am afraid the new Administration has come out of 
the gate with its energy policy on backwards. Dr. Holdren, I know you 
will be a key player in the White House in forming and advancing this 
policy as we go forward, so I am eager to work closely with you to 
identify some areas where we can work together. And maybe I can even 
help to change your mind on some things.
    Thank you again, Mr. Chairman, for holding this hearing. I look 
forward to a productive discussion.

    Chairman Gordon. Thank you, Mr. Hall. I have found you very 
persuasive.
    [The prepared statement of Mr. Costello follows:]
         Prepared Statement of Representative Jerry F. Costello
    Good Morning. Thank you, Mr. Chairman, for holding today's hearing 
on Federal Research and Development Budget for Fiscal Year 2010.
    The President's budget calls for $147.6 billion for research and 
development, which combined with the $10.4 billion appropriated under 
the American Recovery and Reinvestment Act will go to fund an array of 
research and development projects in nearly every agency in the Federal 
Government.
    I am pleased to see that the President's budget continues to invest 
in initiatives under the COMPETES Act, which I and my colleagues on 
this committee continue to actively support. These initiatives invest 
in all ranges of research from basic sciences to high-risk, high-reward 
research. Keeping these research programs on track to double their 
funding will ensure that our students and researchers will remain on 
the cutting edge of science and engineering for years to come. In 
particular, I applaud the continued funding of Science, Technology, 
Engineering, and Mathematics (STEM) Education initiatives. Improving 
access to and quality of STEM programs will ensure that young Americans 
grow into the engineers and researchers of tomorrow. I was, however, 
disappointed the Noyce Teacher Scholarship Program and the Math and 
Science Partnerships did not receive additional funding. We should 
invest now in the future of our R&D programs by ensuring that STEM 
classrooms have highly-trained teachers and students have access to the 
best possible science and math education.
    I also support the increase in funding for two key workforce 
development and worker training programs: the Advanced Technology 
Education (ATE) Program and the Manufacturing Extension Partnership 
(MEP). ATE helps community colleges and other two-year institutions 
improve and develop training programs for high-skilled, high-wage jobs. 
In my District, these programs are especially important to prepare 
students and workers for the new ``green-collar'' workforce. MEP is 
perhaps the single best way to prepare our manufacturers for changes in 
technology. Both of these programs will see increased funding in FY 
2010, and I am pleased to see the Administration's support for these 
vital programs. However, the increased investment still does not 
provide full funding for these programs. In these difficult economic 
times, more funding is necessary to help keep American workers and 
American manufacturers competitive. This committee should take the lead 
in calling for more investment in these cost-effective and efficient 
programs that help our businesses and our workers remain competitive.
    I also have concerns about program cuts in the Fiscal Year 2010 
budget. In particular, I am concerned about cuts to research into 
fossil fuel programs. For the State of Illinois, and many other parts 
of the country, coal is the most important and reliable energy source, 
and with a 250-year supply coal will remain the major energy source for 
generations. As Congress considers climate change legislation that will 
make major changes in our nation's energy portfolio, we need to ensure 
that our domestic sources of energy, including coal, remain an 
affordable and abundant energy sources. The American Recovery and 
Reinvestment Act made substantial investments in fossil fuel research, 
including Carbon Capture and Storage technology. However, these are 
long-term projects that will require continued research and development 
to be commercially viable. I would like to hear from Dr. Holdren if he 
anticipates the Administration making any additional investments in 
fossil fuel research, particularly in light of climate change 
legislation.
    Finally, as Chairman of the Aviation Subcommittee, I strongly 
support the increased funding for Federal Aviation Administration (FAA) 
R&D programs, especially the NextGen program. NextGen, which will 
modernize our National Airspace System through 2025, will receive $865 
million, a 24 percent increase in funding. This investment will keep 
NextGen on schedule and continue to transform how aircraft carry 
passengers and cargo around the country, improving our economy and the 
environment.
    I welcome Dr. Holdren here today, and I thank him for his hard work 
to promote science and research across the Federal Government.
    Thank you again, Mr. Chairman.

    [The prepared statement of Ms. Johnson follows:]
       Prepared Statement of Representative Eddie Bernice Johnson
    Welcome, Dr. Holdren. It is a delight for us to see you at today's 
Committee hearing on the federal research and development budget.
    Strong, sustained investment in federal R&D is among my highest 
priorities. I believe that a competitive, educated workforce is well-
positioned to take advantage of research grant opportunities made 
available by the Federal Government. The President's overall budget for 
Research and Related Activities at the National Science Foundation 
contains $5.73 billion in FY 2010, an increase of 10.6 percent over FY 
2009 funding. Considering inflation and the tough economic times that 
we are experiencing, I commend that choice. It demonstrates the 
President's commitment to research, as he has so often stated.
    However, in reviewing the budget items for the education-related 
activities, I am disappointed. During discussions and passage of the 
America COMPETES Act, the Noyce Teacher training program was a focal 
piece. Noyce received considerable funding in the Recovery Act: $60 
million. That is great news, but the support was not sustained in next 
year's budget. In the FY 2010 budget, Noyce would receive $55 million, 
which is flat funding, relative to FY 2009. This amount will not keep 
up with inflation and will actually represent a decrease in support.
    In his testimony before the CJS Appropriations Subcommittee earlier 
this year, Chairman Gordon requested that Noyce be funded at $70 
million in FY 2010. Furthermore, eighteen members of the Diversity and 
Innovation Caucus wrote to the Budget Committee leaders, requesting 
$140.5 million for Noyce. That letter was shared with your office. I am 
curious to know about the review process for such advocacy by Congress, 
and how budgetary decisions are made. When we support education 
programs that train talented teachers and get students in high-need 
schools interested in science, we build up our domestic workforce.
    You may be aware that the Noyce Teacher Training Program has 
demonstrated success. Institutional grants are awarded to universities 
to train math, science, and engineering majors to become teachers. For 
every year a student receives a Noyce scholarship, she must serve two 
years in a high-need school district in order to not be required to 
repay the award. My colleagues on this committee and I fought hard to 
design and strengthen this program. We watch funding levels closely and 
notice when support is not there.
    Broadening Participation programs at the National Science 
Foundation are slated to receive modest increases only. I would prefer 
a much greater emphasis on these types of programs than is currently 
given. Several of my colleagues on this committee are members of the 
Diversity and Innovation Caucus. They have advocated for minority-
serving institutions by offering amendments during Committee markups. 
There is stronger support to broaden participation in science, 
technology, engineering, and math (also called STEM) than ever before.
    Several National Science Foundation programs are valuable for 
decreasing racial disparities in our STEM workforce.
    They include:

        <bullet>  Minority Post-Docs,

        <bullet>  The ADVANCE Women's Program,

        <bullet>  Broadening Participation in Computing,

        <bullet>  Partnerships for Access to Laboratory Science--Sec 
        7026 of COMPETES Act,

        <bullet>  Graduate Research Fellowships--Women in Engineering 
        and Computer Science,

        <bullet>  Robert Noyce Scholarship Program,

        <bullet>  Faculty Early Career Development (CAREER) Program,

        <bullet>  Science, Technology, Engineering and Math Talent 
        Expansion Program (STEP),

        <bullet>  Hispanic-serving Institutions Undergraduate Program--
        Sec 7033 of COMPETES Act,

        <bullet>  Advanced Technology Education (ATE), and

        <bullet>  Informal Science Education (ISE)

    Furthermore, programs at the Department of Energy are important for 
broadening participation in STEM careers. They are:

        <bullet>  Early Career Awards for Science, Engineering, and 
        Mathematics Researchers,

        <bullet>  Summer Institutes,

        <bullet>  Experiential-based Learning Opportunities,

        <bullet>  National Laboratories Centers of Excellence in 
        Science, Technology, Engineering, and Mathematics Education,

    At NASA, they include:

        <bullet>  The NASA Minority University Research and Education 
        Programs (MUREP).

    Dr. Holdren, I am happy to again share this document, supported by 
so many of my colleagues on the Diversity and Innovation Caucus that 
advocates for much stronger support of these programs. It is my hope 
that your office will take a more formal approach to analyzing and 
watching over federally-funded Broadening Participation programs across 
the agencies.
    A National Academies report on minorities and science, technology, 
engineering, and math is due out this fall. This committee is anxious 
to see the recommendations for it. Currently, there exists no 
coordinating activity for all of these programs across the agencies. 
Such an activity would enable agency program directors to manage 
programs better and share best practices with one another on 
implementing these programs. Furthermore, I would like to see 
measurable outcomes and stronger accountability for every federally-
funded program of this nature. Then we can determine which programs for 
which to advocate, and which to modify or discontinue.
    Dr. Holdren, a huge opportunity stands before you. In 2006, two 
percent of employed doctoral engineers were black. That same year, 2.7 
percent were Hispanic. Eighty-one percent were white or Asian. I would 
like to see this number change during your tenure as the President's 
science advisor. I have high hope that you can achieve this objective 
and am willing to partner with you to lessen these disparities.
    Thank you, and I yield back my time.

    [The prepared statement of Ms. Fudge follows:]
          Prepared Statement of Representative Marcia L. Fudge
    Good Morning. Thank you, Mr. Chairman, for holding today's hearing 
on the Federal Research and Development Budget for Fiscal Year 2010. 
Thank you, Dr. Holdren, for being here.
    Given the current budget deficit situation, it will be more 
important than ever to prioritize spending. The President has committed 
to making science a foundation for development of wise policy and 
legislative choices and decisions. This makes investment in scientific 
research and development all the more vital. Science spending should be 
a priority to accomplish these goals. I applaud the commitment that has 
been made by this Administration to double the investment in key 
science agencies.
    Over the years, many within the academic and scientific communities 
have called on the Federal Government to increase its investment in the 
construction of academic research facilities and centers. In response 
to these concerns, Congress appropriated significant amounts of money 
in the American Recovery and Reinvestment Act for the construction of 
academic research facilities, including $200 million for the NSF's 
Academic Research Infrastructure program. I believe that we should plan 
on continuing to invest or support programs like NSF's Academic 
Research Infrastructure program.
    The government-university partnership that grew out of World War II 
between the Federal Government and U.S. research universities has been 
a fundamental reason for American leadership in science and technology. 
Some within the academic community, however, are concerned that recent 
developments threaten this unique partnership, undermining 
universities' ability to conduct important research on behalf of the 
Federal Government and the American people. These include increasing 
federal regulations and associated compliance costs, arbitrary 
restrictions on reimbursement to universities for the costs of 
conducting federal research, and growing restrictions on communication 
of, and access to, scientific results. Steps should be taken to 
strengthen and revitalize the historic partnership between the Federal 
Government and research universities to keep this country at the 
cutting edge of scientific discovery. This will help prepare the next 
generation of scientists, engineers, and scientifically literate 
citizens.
    The President and Congress have challenged our nation's research 
establishment to provide solutions to a range of today's national and 
global challenges. Recovery Act funding for research has been very 
generous, yet in some research accounts the Administration and Congress 
are not providing the steady and stable increases that will allow long-
term investments in science--and the people to perform research--that 
will yield these answers. Preparation needs to be made for the drop-
off, what some have called the cliff, in research funding support once 
Recovery Act spending is completed in FY10.
    When we think of federal agencies that support energy research, we 
often think of the U.S. Department of Energy. In fact, many agencies 
are involved in some very innovative research, from research being 
conducted by the Department of Defense to improve fuel efficiency and 
make lighter batteries for use by our troops in the field, to basic 
research related to energy that is being conducted by the National 
Science Foundation. Despite all the good work that is going on in 
energy research, there is little coordinated energy research being 
funded across the federal agencies. In fact, it has come to my 
attention that we do not have a handle on the total funding being 
dedicated to energy research government wide. OSTP must work to better 
coordinate energy research efforts across the federal agencies, and to 
identify various roles for key federal research agencies in the energy 
arena. OSTP may want to conduct an agency budget crosscut to identify 
which agencies are involved in energy research. The results might 
identify some untapped opportunities for advancement in energy 
research.
    President Obama said he intends to invest $150 billion over ten 
years to advance the next generation of biofuels and fuel 
infrastructure, accelerate the commercialization of plug-in hybrids, 
promote development of commercial scale renewable energy, invest in low 
emissions coal plants, and begin transition to a new digital 
electricity grid. To support such an investment, however, it will be 
critical to have a pipeline of skilled scientist and engineers that can 
support this effort. A human infrastructure program of STEM education 
at universities and federal laboratories must be built to underpin this 
effort. Federal agencies, such as the Department of Energy and National 
Science Foundation, must ensure that students are trained in fields 
critical to successfully addressing our nation's future.
    Thank you again, and I yield back my time.

    [The prepared statement of Mr. Mitchell follows:]
         Prepared Statement of Representative Harry E. Mitchell
    Thank you, Mr. Chairman.
    Today we will examine the Administration's proposed FY2010 funding 
for federal research development, demonstration, and commercial 
application programs. We will also discuss the funding for the America 
COMPETES Act.
    I'm very proud of the America COMPETES Act, this committee's 
bipartisan legislation that got signed into law in August of 2007. This 
law ensures that our students, teachers, businesses, and workers are 
prepared to lead in science and technology.
    As a former teacher, I know first-hand how important it is to 
expose our children to STEM education. The future of American 
competitiveness in science and technology is heavily dependent on 
ensuring the involvement of future generations.
    However, the America COMPETES Act can only be successful if it's 
funded adequately.
    The Administration's proposal includes level funding or modest 
increases in funding for programs included in the America COMPETES Act. 
When coupled with the substantial investments in the American Recovery 
and Reinvestment Act, these initiatives will receive significant 
funding.
    However, I also wish to express that I strongly believe that we 
must ensure that these programs consistently receive adequate funding 
on an annual basis and not just as a part of the stimulus package.
    I yield back.

    Chairman Gordon. Now, Dr. Holdren must have a very large 
hat rack because he is the Assistant to the President for 
Science and Technology, he is the Director of the White House 
Office of Science and Technology Policy, and he is the Co-
Chairman of the President's Council of Advisors on Science and 
Technology. So we welcome you here. Typically we have our 
witnesses speak for about five minutes. You are the only 
witness, so we want to--we are here for you. You take the time 
that is necessary, and you can--we will have your written 
testimony made a part of the record.
    And so Dr. Holdren, you are now able to begin.

 STATEMENT OF DR. JOHN P. HOLDREN, ASSISTANT TO THE PRESIDENT 
FOR SCIENCE AND TECHNOLOGY, DIRECTOR OF THE WHITE HOUSE OFFICE 
 OF SCIENCE AND TECHNOLOGY POLICY; CO-CHAIR OF THE PRESIDENT'S 
         COUNCIL OF ADVISORS ON SCIENCE AND TECHNOLOGY

    Dr. Holdren. Well, thank you, Chairman Gordon, Ranking 
Member Hall, Members of the Committee. It is a pleasure to be 
here today to talk with you about the President's budget for 
research and development for the 2010 fiscal year, and 
certainly I appreciate those opening remarks both by the 
Chairman and the Ranking Member.
    Before I get to some details of the budget proposals for 
R&D for this year, I want to mention the wider array of 
initiatives in the domain of science, technology, and 
innovation that this Administration has gotten underway in its 
first few months in office. Those initiatives all stem from the 
President's conviction, which I know the Members of this 
committee share, that nourishing and fully utilizing this 
country's world-leading capabilities in science, technology, 
and innovation is going to be key to mastering practically 
every major challenge that we face, from creating new and 
better jobs for economic recovery and growth, to providing 
improved health care for all Americans at lower cost, to 
reducing dependence on energy imports, while also reducing the 
carbon pollution that is affecting Earth's climate, to ensuring 
that we always have the defense, homeland security, and 
national intelligence technologies that we need to protect our 
troops, our citizens, and our national interests.
    The President has been clear from the beginning of his 
campaign for the office about his understanding of the 
importance of science, technology, and innovation for meeting 
these national challenges, and he has been clear about his 
commitment to providing the resources, the incentives, and the 
ground rules that science, technology, and innovation will need 
in order to realize that potential.
    The initiatives that the Administration is already taking 
based on that insight to advance science, technology, and 
innovation in this country are much broader than the increases 
in R&D budgets to which I am shortly going to turn. Those 
initiatives include the executive order and associated pending 
guidelines on federally-funded stem cell research, the 
executive order and associated pending recommendations on 
scientific integrity in government.
    They include making permanent the research and 
experimentation tax credit, a range of energy science and 
technology initiatives that are aimed at building a clean 
energy economy that creates green jobs, shrinks our dependence 
on foreign oil, and reduces the impact of climate change. They 
include an equally-wide range of science, technology, 
engineering, and mathematics education activities, including 
the use of the Clean Energy Challenge as a way to inspire 
interest in science and technology among young people in much 
the same way as the space race did in the 1960s.
    They include increased coordination of interagency efforts 
on Earth observing satellites, climate change science, and 
climate services, and they include a major effort in support of 
the President's executive memorandum on open government. All of 
these initiatives and some more are elaborated in my written 
statement.
    Now, I would like to offer some thoughts on the science, 
technology, and innovation components of the President's fiscal 
year 2010 budget proposal; the details of which were released 
as the Chairman mentioned just under a week ago.
    The new budget proposes $147.6 billion for the total 
federal investment in research and development in fiscal year 
2010, which under OMB's assumed 1.1 percent inflation rate from 
2009 to 2010, would mean a drop of about seven-tenths of a 
percent below the 2009 Omnibus in real spending power.
    But two elaborations are important here. One is that all of 
the real decrease and more is accounted for by a drop in the 
development part of defense R&D involving termination of some 
programs Secretary Gates has concluded have poor prospects or 
low utility.
    The second and more important elaboration is that the real 
magnitude of federal R&D budgets for fiscal year 2009 and 
fiscal year 2010 can only be judged with the inclusion of the 
American Recovery and Reinvestment Act funding, and that 
funding added an estimated $18.3 billion for R&D in fiscal year 
2009 dollars, to be spent mostly over those two years, nearly 
all of it on the non-defense side.
    There is no year-by-year allocation of those funds 
currently available, but it is clear that their addition to the 
approved regular budget for 2009, and the proposed one for 
fiscal year 2010, would give those two years the two largest 
federal investments in R&D in United States history.
    The fiscal year 2009 and 2010 budgets give particularly 
good attention to research as contrasted with development, with 
the aims of bolstering the fundamental understandings that are 
at the root of all innovation and fostering significantly new 
and potentially transformative technologies.
    As with R&D as a whole, if the President's budget is 
enacted, the two years 2009 and 2010, will provide the largest 
federal investments in research in U.S. history. In achieving 
all of that the President's 2010 budget and what came before in 
the Omnibus Bill and the Recovery Act would fulfill a number of 
the important visions established by Congress in the America 
COMPETES Act, which the Ranking Member mentioned. That, of 
course, could not have become law without this committee's 
strong leadership. With passage of the 2010 budget, the 
combined 2009, 2010, and Recovery Act appropriations will, in 
fact, meet the 2009 and 2010 America COMPETES Act 
authorizations for NSF, DOE Science, and NIST.
    Now, as you know, the America COMPETES Act authorizations 
extend to 2011, and we certainly look forward in OSTP to 
working with Congress next year on reauthorizations for these 
important science agencies.
    My written testimony elaborates on the research and 
development and science, technology, engineering, and math 
education budgets for NSF, NIH, NASA, NIST, NOAA, DOE, EPA, the 
U.S. Geological Survey, Department of Homeland Security, 
Department of Transportation, and Department of Defense, as 
well as on the budget of OSTP. It also discusses the funding 
and focus of interagency initiatives on networking and 
information technology R&D, the National Nanotechnology 
Initiative, and the Climate Change Science Program.
    Without trying to summarize that material now, though, let 
me move to my conclusion. While the Nation faces immense 
challenges in the economy, health, energy, the environment, 
national and homeland security among other domains, it is clear 
that science, technology, and innovation can help turn many of 
those challenges into opportunities. The President understands 
this thoroughly and his fiscal year 2010 budget reflects that 
understanding in proposing a robust investment in science, 
technology, and STEM education today to produce the new 
knowledge, the new technologies, and the scientists, engineers, 
mathematicians, and science and technology-literate citizens 
that our country will need in the future to meet the challenges 
and seize the opportunities.
    I look forward to working with this committee to make the 
vision of the President's fiscal year 2010 budget proposal into 
a reality, and I will be pleased to answer any questions the 
Members may have.
    Thank you very much.
    [The prepared statement of Dr. Holdren follows:]
                 Prepared Statement of John P. Holdren
    Chairman Gordon, Ranking Member Hall, and Members of the Committee, 
I am pleased to be with you today to discuss the President's Budget for 
research and development (R&D) for the 2010 fiscal year.

Administration Initiatives in Science, Technology, and Innovation

    Before I get to the details of the R&D budgets, I'd like to set the 
stage with a few comments on the array of initiatives in the domain of 
science, technology, and innovation (STI) that this Administration has 
gotten underway in its first few months in office. These initiatives 
all stem from the President's conviction, which I know the Members of 
this Committee share, that nourishing and fully utilizing this 
country's world-leading capabilities in STI will be key to mastering 
practically every major challenge we face, from creating new and better 
jobs for economic recovery and growth, to providing improved health 
care for all Americans at lower cost, to reducing dependence on energy 
imports while also reducing the carbon pollution that is changing 
Earth's climate, to ensuring that we always have the defense, homeland 
security, and national intelligence technologies needed to protect our 
troops, our citizens, and our national interests.
    The President has been clear, from the beginning of his campaign 
for the office, about his understanding of the importance of STI for 
meeting these national challenges and about his commitment to providing 
the resources, incentives, and ground rules that science, technology, 
and innovation need in order to realize their potential. He was clear 
about this in his inauguration speech, in his speech to the Joint 
Session of Congress on February 24, and most extensively and 
emphatically of all in his ground-breaking speech to the Annual Meeting 
of the National Academy of Sciences on April 27.
    Of course, he and all of us are aware that the economic crisis 
compounds the difficulty of doing all that should be done to support 
and facilitate the realization of STI's full potential to help address 
the challenges we face. But this is no time to say it cannot be done. 
Here is what the President said about that in his speech to the 
National Academy:

         ``At such a difficult moment, there are those who say we 
        cannot afford to invest in science--that support for research 
        is somehow a luxury at moments defined by necessities. I 
        fundamentally disagree. Science is more essential for our 
        prosperity, our security, our health, our environment, and our 
        quality of life than it has ever been before.''

    The initiatives that the Administration is already taking, based on 
this insight, to advance STI in this country are much broader than the 
increases in R&D budgets to which I will shortly turn. Let me mention a 
few of the most important that we in the White House Office of Science 
and Technology Policy (OSTP) have been focused on in collaboration with 
others in the Executive Office of the President:

    Stem cell research: As you know, the President's March 9 Executive 
Order on stem cell research and the draft guidelines produced under 
that order by the National Institutes of Health are moving policy on 
federal funding for potentially life-saving and life-enhancing 
biomedical research in this domain toward a stance that will allow 
faster progress while observing responsible boundaries and actually 
providing greater oversight than before.

    Scientific integrity: In an Executive Memorandum also issued on 
March 9, the President asked OSTP to produce recommendations ``to 
ensure that public policy is informed by the best possible science, and 
that political officials should not suppress or alter scientific or 
technological findings and conclusions.'' OSTP is well along in this 
process and has received input about existing guidelines and practices 
as well as about prospective improvements from across the Executive 
Branch departments and agencies with science missions and from other 
stakeholders.

    Science, technology, engineering and mathematics (STEM) education: 
In his speech at the National Academy of Sciences, President Obama 
pledged that his Administration will help American students ``move from 
the middle to the top of the pack in science and math education over 
the next decade.'' OSTP is working with the White House Domestic Policy 
Council, the Department of Education, and a number of the main science 
and technology agencies to identify and promote concrete actions to 
help meet this ambitious goal.

    Preparing the next generation of clean-energy innovators: One of 
President Obama's top priorities is to build a clean-energy economy 
that creates green jobs, shrinks our dependence on foreign oil, and 
reduces the impact of climate change. OSTP is working with the National 
Science Foundation and the Department of Energy on a new initiative in 
clean-energy education. With investments from grade school to grad 
school, this program will inspire today's students to tackle this 
challenge in the same way that the ``space race'' motivated many 
students in the 1950s and 1960s to become scientists and engineers.

    High-risk, high-return research: The National Academy of Sciences, 
the American Academy of Arts and Sciences, and others have concluded in 
recent reviews that the Federal Government is under-investing in high-
risk, high-return research. OSTP has been working with a number of the 
science agencies to address this problem. The National Institutes of 
Health, for example, have agreed to use their funds under the American 
Recovery and Reinvestment Act (ARRA) to increase the number of New 
Innovator Awards they are supporting. This program supports unusually 
creative new investigators with highly innovative research ideas at an 
early stage of their career when they may lack the preliminary data 
required for a typical NIH award.

    Nanotechnology: The President noted in his campaign that 
nanotechnology has enormous potential to lead to revolutionary 
advances--in electronics, low-cost solar cells, next-generation energy 
storage, and smart anti-cancer therapeutics that deliver drugs only to 
tumors, among other fields of application, but that this potential must 
be pursued with due attention to minimizing possible side effects. 
Consistent with this stance, OSTP has supported a substantial increase 
in the Federal Government's investment in research related to the 
environment, health, and safety dimensions of nanotechnology.

    International cooperation in science and technology: International 
cooperation in science and technology can accelerate the pace of 
progress by sharing insights, costs, and risks among the cooperating 
countries; can improve knowledge of and access to foreign technology 
markets by U.S. firms; can promote widespread adoption of solutions to 
problems that are global in nature (such as climate change, oil-import 
vulnerabilities, ocean pollution, and proliferation of nuclear 
weapons); and can contribute to improving relations with countries 
where such improvements can bring broad benefits. With the President's 
encouragement, OSTP is working to reduce unwarranted barriers to 
international exchanges in science and technology fields and to take 
advantage of the opportunities many other countries are eager to offer 
for collaborative efforts that are clearly in the U.S. interest.

    Open Government: One of the first actions taken by the President 
following inauguration was to issue an Executive Memorandum on 
transparency in government, energizing a wide-ranging effort to use 
technology to help make government more open, collaborative, and 
participatory. An early manifestation of this effort is the recent 
launch of an interactive blog on science integrity on the OSTP 
website--the first such web feature ever set up to take public comments 
within the Executive Office of the President--that is allowing 
Americans from all across the country to weigh in with their thoughts 
on this topic.
    Now I'd like to offer some thoughts on the STI components of the 
President's FY 2010 Budget proposal, the details of which were released 
just under a week ago.

Overall STI Budget

    The new Budget proposes $147.6 billion current dollars for the 
total federal investment in research and development (R&D) in FY 2010, 
which under OMB's assumed 1.1 percent inflation rate from FY 2009 to FY 
2010 would mean a drop of about 0.7 percent below the 2009 Omnibus in 
real spending power. But two elaborations are important here. One is 
that all of the real decrease and more is accounted for by a drop in 
the development part of defense R&D. Defense R&D in total would drop 
3.0 percent in real terms from FY 2009 to FY 2010 under the President's 
proposal, while non-defense R&D would increase by 2.5 percent in real 
terms.
    The second elaboration is that the real magnitude of the federal 
R&D budgets for FY 2009 and FY 2010 can only be judged with the 
inclusion of the ARRA funding, which added an estimated $18.3 billion 
for R&D in FY 2009 dollars to be spent mostly over those two years, 
nearly all of it on the non-defense side. While no year-by-year 
allocation of these funds is currently available, it is clear that 
their addition to the approved regular budget for FY 2009 and the 
proposed one for FY 2010 would give these two years the two largest 
federal investments in R&D in U.S. history.
    The FY 2009 and FY 2010 budgets give particularly good treatment to 
research, both basic and applied (as contrasted with development), with 
the aims of bolstering the fundamental understandings that are at the 
root of all innovation and fostering significantly new and potentially 
transformative technologies. Without the ARRA funding, and expressed in 
constant FY 2009 dollars, the FY 2009 and proposed FY 2010 figures are 
about equal at circa $58.5 billion, more than three percent above the 
FY 2008 figure in real terms. With the estimated $13.3 billion in FY 
2009 dollars added by ARRA to the research funding for FY 2009 and FY 
2010, and with Congressional approval of the President's proposal for 
the latter, these two years will provide the largest federal 
investments in research in U.S. history. This follows four years of 
real decline in this category from FY 2004 to FY 2008.

Budgets of Science Agencies

    The new Budget sustains the President's commitment to double the 
budgets for three key basic research agencies over a decade: the 
National Science Foundation, the National Institute of Standards and 
Technology (NIST) laboratories, and the Department of Energy's Office 
of Science. The President's Plan for Science and Innovation and the 
America COMPETES Act have identified these three agencies as key to our 
nation's future prosperity and to preserving America's place as the 
world leader in science and technology. Although the previous 
Administration supported an effort to double these agencies' budgets 
between 2006 and 2016, these efforts fell short in 2007 and 2008. But 
in 2009, this Congress and this Administration worked together to 
finally put these agencies on a doubling trajectory.
    In his April 27 speech at the National Academy of Sciences, the 
President announced that his 2010 Budget would provide $12.6 billion 
total for NSF, DOE Science, and the NIST labs, an increase of five 
percent in real terms above the 2009 enacted total. In addition, the 
Recovery Act provided $5.2 billion in FY 2009 dollars for the three 
agencies, to be spent mainly in FY 2009 and FY 2010. The overall 
increases keep these agencies on track for the fourth year of a 
doubling trajectory, and the 2010 Budget establishes a clear path 
toward completing the doubling effort in 2016.
    The President's FY 2010 Budget also fulfills the important visions 
established by Congress in the America COMPETES Act, which could not 
have become law without this committee's strong leadership. Combined, 
the Omnibus Appropriations Act, the Recovery Act and the 2010 Budget 
meet the 2009 and 2010 America COMPETES Act authorizations for NSF, DOE 
Science, and NIST. America COMPETES Act authorizations extend to 2011; 
we look forward to working with Congress next year on reauthorizations 
for these important agencies.
    Some further comments on the FY 2010 Budget for individual agencies 
follow.

National Science Foundation (NSF)
    The National Science Foundation (NSF) is the primary source of 
support for academic research for most non-biomedical disciplines, 
funding basic research across the entire spectrum of the sciences and 
engineering. It is well regarded for funding nearly all of its research 
through a competitive, peer-reviewed process. The 2010 Budget requests 
$7.0 billion for NSF, an increase of 7.4 percent in real terms above 
the FY 2009 enacted level. This keeps NSF on track to double its budget 
over a decade as promised in the President's Plan for Science and 
Innovation. In addition, the Recovery Act provided $3.0 billion for 
NSF.
    Basic research funding is important not only because it leads to 
new knowledge but also because it trains the researchers and the 
technical workforce of the future. In recognition of this dual benefit 
to society and of NSF's special contribution, on April 27 the President 
announced that the 2010 Budget fulfills the President's commitment, 
made in his first weekly radio address, to triple the number of NSF's 
Graduate Research Fellowships to 3,000 by 2013. The 2010 Budget also 
requests an increase to $64 million, the full authorized funding level, 
for the Advanced Technological Education (ATE) program to promote 
partnerships between higher education institutions and employers to 
educate technicians for the high-technology fields that drive our 
nation's economy.
    NSF will also be collaborating with the Department of Energy (DOE) 
on the RE-ENERGYSE (Regaining our ENERGY Science and Engineering Edge) 
program to inspire tens of thousands of American students to pursue 
STEM careers, particularly in clean energy. I believe NSF is poised to 
play a vital part in this collaboration through programs such as 
Integrative Graduate Education Research Traineeship (IGERT) 
opportunities in clean energy, Research Experiences for Undergraduates 
(REU) in energy, and clean-energy ATE projects.

National Aeronautics and Space Administration (NASA)
    The 2010 Budget requests $18.7 billion for NASA, nearly $1 billion 
more than the 2009 enacted level, in addition to the $1 billion 
provided in the Recovery Act. These boosts reflect the Administration's 
commitment to a balanced and robust space program. Maintaining and 
expanding our capabilities in space is sometimes regarded as a luxury 
we should do less of in the face of more pressing Earth-bound concerns, 
but that would be a false economy. Space is crucial to our national 
defense; to civil as well as military communications and geo-
positioning; to weather forecasting and storm monitoring; to 
observation and study of the condition of our home planet; and to study 
and exploration that is increasing our understanding of the physical 
universe and our place in it. The 2010 Budget and the Recovery Act add 
money that will be needed to keep vital satellite missions for 
gathering climate data on track, to sustain a full schedule of Space 
Shuttle flights, to complete assembly of the International Space 
Station, to restore funding for aeronautics research, and to develop 
the next generation of human spacecraft.
    As President Obama has emphasized on a number of occasions, he 
remains committed to U.S. participation in human as well as robotic 
space exploration, including sending astronauts beyond low-Earth orbit. 
Reconciling these aspirations with NASA's other missions in an era of 
budget constraint remains a great challenge, however, and to help with 
it as we contemplate the budgets looking forward from FY 2010 to the 
``out years,'' the Administration is establishing a blue-ribbon team of 
experts who will work closely with NASA to re-examine human space 
flight activities beyond the scheduled retirement of the Space Shuttle 
at the end of calendar 2010. The goal for the review, which will report 
to me and the NASA Administrator, is to be sure that all of the options 
for achieving as many of our human space flight goals as possible in 
this crucial period, consistent with also fulfilling NASA's other 
missions, have been identified and carefully analyzed.

Department of Commerce National Institute of Standards and Technology 
        (NIST)
    The National Institute of Standards and Technology (NIST) invests 
in technological innovation through research, advanced measurement, and 
standards development. NIST's intramural laboratories receive $652 
million in the FY 2010 Budget to keep these important basic-science 
programs on track to double over a period of a decade. The 2010 Budget 
will improve NIST's capabilities by supporting high-performance 
laboratory research and facilities for a diverse portfolio of basic 
research. For NIST's extramural programs, the 2010 Budget requests $125 
million for the Hollings Manufacturing Extension Partnership (MEP), a 
$15 million increase over the 2009 enacted level, as part of a separate 
commitment to double MEP funding between 2008 and 2015. The 2010 Budget 
also requests $70 million for the Technology Innovation Program (TIP).

Department of Commerce National Oceanic and Atmospheric Administration 
        (NOAA)
    The National Oceanic and Atmospheric Administration (NOAA) plays a 
vital role in research on the Earth's ocean, atmosphere, and marine 
habitats. The NOAA Budget of $4.5 billion is an increase of about 1.3 
percent in real terms over the 2009 enacted level. More important than 
this modest overall gain is that NOAA satellite systems, which are 
essential to our understanding of weather and climate, are a top 
priority in the 2010 Budget with over $1.3 billion, intended to cover 
increases for the Geostationary Operational Environmental Satellite R-
series (GOES-R) and National Polar-orbiting Operational Environmental 
Satellite System (NPOESS) projects. These resources are designed to 
ensure continuity of satellite coverage needed for weather forecasting 
and climate data records that are important for the Administration's 
initiatives to understand and respond to climate change. Data from 
these satellites will be utilized by NOAA's climate research programs, 
which total $295 million in the FY 2010 Budget, as well as by 
researchers funded by other agencies.
    I share this committee's concern about past schedule delays and 
cost increases in the NPOESS program. NOAA is using Recovery Act funds 
to restore climate sensors to NPOESS, which is a welcome step, and I 
can assure the Committee that OSTP is actively engaged in overseeing 
the progress of this program, including convening the responsible NOAA, 
NASA, and DOD staff to work more effectively together to stabilize this 
joint program.

Department of Energy (DOE)
    The Department of Energy (DOE) R&D portfolio (which does not 
include non-R&D cleanup, weapons, and energy-demonstration programs), 
totals $10.7 billion in the 2010 Budget, about the same as in FY 2009 
in real terms. That figure is seven percent above the FY 2008 enacted 
figure. In addition, DOE received $2.4 billion in preliminary 
allocations of Recovery Act funds for R&D activities, which will be 
spent primarily in 2009 and 2010, and these additions boost the DOE R&D 
spending level for FY 2009 and FY 2010 to the range of 20 percent above 
the FY 2008 level.
    DOE is investing in science to achieve transformational discoveries 
through novel approaches. For example, the 2010 Budget launches Energy 
Innovation Hubs with $280 million spread over eight centers to support 
cross-disciplinary R&D on the barriers to transforming advances in 
energy science into commercially deployable materials, devices, and 
systems. The 2010 Budget will also continue to support the 46 Energy 
Frontier Research Center (EFRC) grants announced on April 27 to address 
the fundamental scientific roadblocks to clean energy and energy 
security through collaborations among universities, national labs, 
industry, and nonprofit organizations. It will also continue to support 
the Advanced Research Projects Agency-Energy (ARPA-E), authorized in 
the America COMPETES Act and first funded in the Recovery Act. ARPA-E, 
modeled on DOD's Defense Advanced Research Projects Agency (DARPA), 
will fund high-risk, high-reward research to yield revolutionary 
changes in how we produce, distribute, and use energy.
    DOE's Office of Science (DOE SC) supports grants and infrastructure 
for a wide range of basic research impacting economically significant 
areas such as nanotechnology, high-end computing, energy, and climate 
change. The FY 2010 Budget of $4.9 billion for this office increases 
funding for both research and cutting-edge facilities, and will be 
augmented by the 2010 share of the $1.6 billion for DOE SC in the 
Recovery Act. These funds will improve our understanding of climate 
science, continue the U.S. commitment to international science and 
energy experiments, and add to the expansion of federal support at the 
frontiers of energy research.
    The President's 2010 Budget also invests in DOE's clean-energy R&D 
programs to reduce dependence on foreign oil and to accelerate the 
transition to a low-carbon economy. It provides $320 million for solar 
energy R&D, nearly double the 2009 enacted level of $175 million, and 
$238 million for energy conservation building technologies, also nearly 
double the 2009 enacted level of $140 million.

Environmental Protection Agency (EPA)
    EPA's R&D investment is managed by the Office of Research and 
Development (ORD), with the majority residing in the Science and 
Technology (S&T) account, which receives an Agency-wide total of $842 
million in the 2010 Budget, 5.4 percent above the 2009 enacted level. 
R&D priorities in the 2010 Budget include green infrastructure research 
for water quality; climate-change research consistent with directions 
outlined in a recent National Academy of Sciences review of the 
government's efforts in this domain; and continuing efforts in 
computational toxicology research. EPA's nanotechnology research 
program continues to fund research designed to support and inform 
health and environmental nanotechnology safety decisions. EPA is also 
proposing to increase its efforts to inventory greenhouse gas 
emissions.

United States Geological Survey (USGS)
    The total USGS Budget of $1.1 billion is a $54 million increase 
over the 2009 enacted level. I am pleased that the highest budget 
priorities are increases in the areas of climate change, renewable 
energy, and education and training programs. The 2010 USGS Budget 
expands climate-change science activities, requesting $58 million for 
the Global Change program--a real increase of over 40 percent from the 
2009 enacted level. These funds include $22 million for climate-change 
impacts. The increases will fund a National Climate Change and Wildlife 
Science Center to develop regional collaborative research hubs, support 
carbon sequestration research, and develop an Interior Climate Effects 
Network.

Department of Homeland Security (DHS)
    Department of Homeland Security (DHS) R&D increases to $1.125 
billion in the 2010 Budget, an increase of about 1.5 percent in real 
terms from 2009 enacted level. DHS's Science and Technology Directorate 
is responsible for most of this R&D investment. Within that 
directorate's 2010 Budget of $968 million, I call your attention 
particularly to the $44 million request for the cross-cutting 
Innovation portfolio focused on work that could lead to revolutionary 
technology breakthroughs, which is $11 million increase over the 2009 
enacted funding level.

Department of Transportation/Federal Aviation Administration (FAA)
    Department of Transportation (DOT) R&D programs receive $939 
million in the 2010 Budget, an increase of about 1.7 percent in real 
terms over the 2009 enacted level. Central to DOT's R&D activities is 
the Federal Aviation Administration's (FAA) Research, Engineering, and 
Development program. The 2010 Budget for that program requests $180 
million, up from the $171 million 2009 enacted funding level. I am 
pleased that the request includes funding for several R&D activities in 
the Next Generation Air Transportation System (NextGen) as well as the 
Joint Planning and Development Office which coordinates this important, 
high priority interagency effort with NASA.

National Institutes of Health (NIH)
    Federal R&D investments in health result in knowledge and 
technologies that are vital for promoting longer, healthier lives for 
all Americans and have the potential for doing so at lower costs. The 
Administration is committed to funding biomedical and health research 
and to policies that increase the impact of these investments on health 
outcomes. The 2010 Budget proposes $30.8 billion for the National 
Institutes of Health (NIH), a modest 0.4 percent in real terms above 
the enacted FY 2009 figure but 3.4 percent above FY 2008. In addition, 
NIH received $10.4 billion in Recovery Act funding, mainly to be spent 
in 2009 and 2010. As a result, this year and next year NIH will make 
the two largest investments in biomedical research in history in real 
terms. I note also that the FY 2010 Budget includes over $6 billion to 
support cancer research, as part of the President's multi-year plan to 
double NIH-wide funding for cancer research while also maintaining 
growth for non-cancer research.

Department of Defense (DOD)
    The new Budget proposes $79.7 billion for DOD R&D, down 3.4 percent 
in real terms from the FY 2009 enacted figure and 3.0 percent below FY 
2008, due primarily to proposed cuts in lower-priority weapons 
development programs. The Budget contains an increase of about three 
percent in real terms for the Defense Advanced Research Projects Agency 
(DARPA), which focuses on longer-term, breakthrough research; and it 
keeps support for basic research across the Department about the same 
in as in FY 2009, at a level some 11 percent higher in real terms than 
the FY 2008 enacted figure.

White House Office of Science and Technology Policy (OSTP)
    The White House Office of Science and Technology Policy has primary 
responsibility in the White House, in partnership with OMB, for shaping 
R&D priorities across the agencies with significant portfolios in this 
domain, and OSTP also has the primary responsibility, with the help of 
the National Science and Technology Council (NSTC) that is administered 
out of our office, for coordinating interagency research initiatives. 
The FY 2010 Budget's request for OSTP's operations is $6.2 million, 
about a 15 percent increase in real terms from the FY 2009 enacted 
figure.
    The increase is in recognition of OSTP's responsibilities have been 
significantly increased by virtue of the President's determination to 
elevate the role of S&T in the Executive Branch generally and the White 
House particularly. We are returning to the four Senate-confirmed 
Associate Directors authorized by statute (only two of which positions 
were filled in the last Administration); and one of the four--the 
Associate Director for Technology--also will hold the new position of 
Chief Technology Officer for the Nation and Assistant to the President, 
with expanded duties including guiding and resourcing the President's 
Open Government Initiative. We are also reinvigorating the President's 
Council of Advisors on Science and Technology (PCAST), ramping up the 
activities of the NSTC, and coordinating the nation-wide effort to 
enhance scientific integrity in the policy-making process.

Interagency Initiatives

    A number of priority interagency S&T initiatives are highlighted in 
the new Budget. All of these are coordinated through the NSTC, which as 
noted above is administered by OSTP.

Networking and Information Technology R&D
    The multi-agency Networking and Information Technology Research and 
Development (NITRD) Program plans and coordinates agency research 
efforts in cyber security, high-end computing systems, advanced 
networking, software development, high-confidence systems, information 
management, and other information technologies. The FY 2010 Budget 
provides $3.9 billion for NITRD. NITRD programs are also receiving 
about $0.7 billion in Recovery Act funding, based on preliminary agency 
allocations, spread across 2009 and 2010. The FY 2010 Budget for NITRD 
retains the important focus on investment in high-end computing 
research for both national security and large-scale scientific 
applications, particularly in advanced scalable simulations. The new 
Budget also emphasizes foundations for assured computing and secure 
hardware, software, and network design and engineering to address the 
goal of making Internet communications more secure and reliable.

National Nanotechnology Initiative
    The FY 2010 Budget provides $1.6 billion for the multi-agency 
National Nanotechnology Initiative (NNI), a slight cut of $17 million 
from the enacted 2009 level excluding Recovery Act funds. But NNI 
programs are receiving $140 million in Recovery Act funding spread 
across 2009 and 2010, based on preliminary agency allocations. The NNI 
focuses on R&D that creates materials, devices, and systems that 
exploit the fundamentally distinct properties of matter as it is 
manipulated at the nanoscale (roughly one to 100 nanometers). The 
results of NNI-supported R&D are enabling breakthroughs in biomedical 
detection and treatment, manufacturing at or near the nanoscale, 
environmental monitoring and protection, energy conversion and storage, 
and novel electronic devices, among many others.
    Guided by the NNI Strategic Plan, participating agencies will 
continue to support nanoscience and nanotechnology development through 
investigator-led research; multi-disciplinary centers of excellence; 
education and training; and infrastructure and standards development, 
including user facilities and networks that are broadly available to 
support research and innovation. In addition, consistent with the NNI 
Strategy for Nanotechnology-Related Environmental Health, and Safety 
(EHS) Research, agencies continue to maintain a focus on developing 
nanotechnology responsibly, with attention to the human and 
environmental health impacts, as well as ethical, legal, and other 
societal issues. I know that these issues are of special interest to 
this committee, so I'm pleased to say that the 2010 Budget increases 
the priority of nano EHS research with a request of $88 million for 
nano EHS research, more than 20 percent above the 2009 level in real 
terms. There is an additional $36 million for nano educational and 
societal dimensions research, which is a seven percent increase over 
the 2009 level in real terms.

Climate Change Science Program
    The U.S. Climate Change Science Program (CCSP) coordinates climate 
research among 13 participating departments and agencies. The FY 2010 
Budget provides $2.0 billion for CCSP programs, which is only about 1.2 
percent above the regular FY 2009 Budget in real terms. But CCSP 
programs also received $461 million in Recovery Act funding spread 
across 2009 and 2010, based on preliminary agency allocations, 
including $237 million for NASA climate activities. Research activities 
to be supported by these funds include the development of an integrated 
Earth-system analysis capability; creation of a high-quality record of 
the state of the atmosphere and ocean since 1979; development of an 
end-to-end hydrologic projection and application capability; enhanced 
carbon-cycle research on high latitude systems; quantification of 
climate forcing and feedbacks by aerosols, non-carbon dioxide 
greenhouse gases, water vapor, and clouds; assessment of possibilities 
for abrupt change in a warming climate; examination of the feasibility 
of development an abrupt-change early warning system; understanding 
climate change impacts on ecosystem functions; and refining ecological 
forecasting.

Science, Technology, Engineering, and Mathematics (STEM) Education
    OSTP shares this committee's longstanding interest in a coordinated 
interagency effort on federal STEM education activities. A study by the 
Academic Competitiveness Council found that federal STEM programs are 
contained in 10 cabinet departments and four independent agencies, 
making effective coordination a necessity. The 2010 Budget proposes 
$3.7 billion for these STEM programs, an increase of about 1.6 percent 
in real terms above the enacted FY 2009 level. There is another $276 
million for these programs in the Recovery Act according to preliminary 
assessments. OSTP will be working with this committee and the relevant 
federal agencies to improve interagency planning and coordination for 
these STEM education activities.

Conclusion

    While the Nation faces immense challenges in the economy, health, 
energy, the environment, and national and homeland security, among 
other domains, it is clear that science and technology can help turn 
many of these challenges into opportunities. The President understands 
this thoroughly, and his FY 2010 Budget reflects that understanding, 
proposing a robust investment in science, technology, and STEM 
education today to produce the new knowledge, the new technologies, and 
the scientists, engineers, mathematicians, and S&T-literate citizens of 
the future that our country will need to meet the challenges and seize 
the opportunities.
    I look forward to working with the Committee to make the vision of 
the President's FY 2010 Budget proposal into a reality. I will be 
pleased to try to answer any questions the Members may have.

                     Biography for John P. Holdren
    DR. JOHN P. HOLDREN is Assistant to the President for Science and 
Technology and Director of the Office of Science and Technology in the 
Executive Office of the President of the United States. Prior to 
joining the Obama Administration, he was the Teresa and John Heinz 
Professor of Environmental Policy and Director of the Program on 
Science, Technology, and Public Policy at the Kennedy School of 
Government, and Professor of Environmental Science and Policy in the 
Department of Earth and Planetary Sciences, at Harvard University. 
Concurrently, from 2005, he served as Director of the Woods Hole 
Research Center and, from 2002, as Co-Chairman of the independent, 
bipartisan National Commission on Energy Policy. Dr. Holdren holds 
degrees in aerospace engineering and theoretical plasma physics from 
MIT and Stanford and is the author of some 350 publications on global 
environmental change, energy technology and policy, nuclear arms 
control and nonproliferation, and science and technology policy. He is 
a member of the National Academy of Sciences, the National Academy of 
Engineering, the American Academy of Arts and Sciences, and the Council 
on Foreign relations. He is also a former President of the American 
Association for the Advancement of Science; former Chairman of the 
Federation of American Scientists; and one of the first recipients, in 
1981, of a MacArthur Foundation Prize Fellowship. In 1995 he gave the 
Nobel Peace Prize acceptance lecture on behalf of the Pugwash 
Conferences on Science and World Affairs, an international arms-control 
and scientific-cooperation organization in which he held leadership 
positions from 1982 to 1997. From 1994 to 2001, Dr. Holdren served as a 
member of President Clinton's Council of Advisors on Science and 
Technology (PCAST); from 1994 through 2004 he chaired the Committee on 
International Security and Arms Control of the National Academy of 
Sciences; and from 1991 to 2005 he was a member of the Board of 
Directors of the John D. and Catherine T. MacArthur Foundation. At the 
beginning of his career he held positions at the Lockheed Missiles and 
Space Company, the Lawrence Livermore National Laboratory, and the 
Environmental Quality Laboratory and Division of Humanities and Social 
Sciences at the California Institute of Technology, and from 1973 until 
1996 he was the founding core faculty member and Co-Director of the 
campus-wide, interdisciplinary, graduate-degree-granting Energy and 
Resources Group at the University of California, Berkeley. He has been 
married for 43 years to Dr. Cheryl E. Holdren, a biologist; they have 
two grown children and five grandchildren ages 3 to 18. Holdren was 
born in Sewickley, Pennsylvania, and grew up in San Mateo, California, 
where he attended public schools: Beresford Elementary, Borel Junior 
High, and Hillsdale High School.

                               Discussion

    Chairman Gordon. Thank you, Dr. Holdren, and thank you 
particularly, you and the President for your commitment to 
America COMPETES. We do think it is good legislation.
    Let me give sort of a game plan for everyone here if you 
feel comfortable with it. In about probably 40 or 45 minutes we 
are going to have the final votes of the day. There will 
probably be a series of at least two, could be more, and so I 
think we will conclude at that time. I know people have flights 
they want to catch. We will also give an open invitation to Dr. 
Holdren to come back, and we are sure we will see him later.
    And to move forward, I am going to waive my questions. I 
might reserve a little follow up on somebody's later, and so 
Mr. Baird, you are recognized for five minutes.
    Mr. Baird. I thank the Chairman very much. Dr. Holdren, 
congratulations. Welcome. We are delighted by your appointment 
and your presence here today, and I appreciate your 
acknowledgement of America COMPETES. Chairman Gordon worked so 
hard on that, and we all appreciate his leadership on that.
    Two quick issues I would just like your input on. One is 
the role of oceans as you see it in our research portfolio and 
as we look at the effects of overheating of the planet and 
acidification. Sixty-eight percent of the world's surface is 
oceans, and they are under assault, as you know, from invasive 
species, over-fishing, et cetera. So comments on that.
    Secondly, what do you see as the role of social science in 
the research portfolio? My perspective as a former social 
scientist is if we look at energy, health care, national 
security, and a host of other measures, behavior change may be 
as important to solving some of those riddles as the 
technological innovation.
    So let me put that out there and hear your response. Again, 
thank you, Mr. Chairman.
    Dr. Holdren. Well, thank you.
    First of all, on the oceans I think one can already see 
something about this Administration's commitment on the 
importance of the oceans in the appointment of one of the 
world's leading marine biologists, Dr. Jane Lubchenco as the 
new Administrator of NOAA. And I suspect that Dr. Lubchenco has 
already been heard from before this committee or otherwise will 
be soon. I have talked with her extensively about the 
importance of the oceans. I agree with it.
    In my Presidential address to the American Association of 
the Advancement of Science a couple of years ago I listed the 
oceans as one of the five major priorities in science and 
technology that we absolutely have to get right. It is 
important to everything. You mentioned the role of the oceans 
in climate change, the acidification of the oceans. These are 
huge challenges. The country has got to address them in an 
integrated and unified and coherent way, and I believe that 
between OSTP, NOAA, and the many other agencies that deal in 
various ways with ocean issues, we are going to start to get it 
right.
    With respect to social science, I also agree with your 
point. I think the social, behavioral, and economic sciences 
are crucial across the whole range of challenges I mentioned, 
and when I say the word ``science,'' I don't just mean physics, 
chemistry, biology, and so on. I include the social sciences.
    That effort in terms of research, of course, is extensively 
funded in the National Science Foundation, but there are also 
social, behavioral, and economic science research activities 
underway in a huge range of departments, even including the 
Department of Defense but also Homeland Security, Department of 
Energy, precisely because you are correct in saying that these 
science domains are going to be critical to finding solutions 
to these problems.
    Mr. Baird. One other quick note. Our committee has done a 
fair bit of work on the issue of science diplomacy. Mr. 
Lipinski chairs the Subcommittee which I formerly chaired, and 
we are working with the Foreign Affairs Committee on--we have 
already passed with the Chairman's support legislation to 
promote scientific diplomacy within Department of State and 
NSTC, but I wonder if you could comment briefly on the role 
of--as you see--science in our diplomatic efforts.
    Dr. Holdren. I have been involved myself in international 
science diplomacy since the beginning of the 1970s. I think it 
is extremely important. I think it provides important avenues 
of communication even when other aspects of relations are 
challenging. I think it contributes to U.S. national interests 
in a wide variety of ways and certainly we need to be 
nourishing it and expanding it.
    Since the time I was confirmed on March 20, which was the 
moment I became able to meet with representatives of other 
countries, I have had the chief science advisors, the heads of 
state of governments to about 11 countries come through my 
office talking about things that we could do together to 
improve science and technology cooperation between the United 
States and these other countries.
    I have had the Ambassadors of at least six countries in my 
office since being confirmed, and I am spending a lot of time 
down at the State Department working with the folks there on 
how to advance this agenda.
    Mr. Baird. Excellent. With that I thank the Chairman and 
would yield back in the interest of my colleagues.
    Chairman Gordon. Thank you, Mr. Baird. You have about a 
minute left, so let me just as a follow up to that. What do you 
see the relationship between OSTP and the State Department in 
this area?
    Dr. Holdren. Well, I think it is the responsibility of OSTP 
to work with all of the other departments in the Executive 
Branch, as well as, of course, as working with the Congress on 
every area in which science and technology play a role. And 
certainly science and technology----
    Chairman Gordon. I am talking about international 
cooperation----
    Dr. Holdren.--play a big role.
    Chairman Gordon.--with the State Department having a 
specific, you know, desk for that now, I guess you would say. 
What do you see the relationship between the OSTP and that desk 
in the State Department?
    Dr. Holdren. Well, the way that is working is we are 
meeting regularly down there and at OSTP. Folks from State 
Department are coming to OSTP, I am going down there with my 
colleagues. We are talking together----
    Chairman Gordon. What should they----
    Dr. Holdren.--about how to get it done.
    Chairman Gordon.--do, and what should you do?
    Dr. Holdren. The State Department has the responsibility 
for orchestrating our international interactions, and in that 
sense what OSTP is, is a provider of insight about the science 
and technology content of those interactions and as a 
facilitator because we have many contacts of our own that we 
make the State Department aware of so that they can decide how 
best to orchestrate the overall interaction. The orchestration 
is their responsibility. Contributing to it in the science and 
technology domain is ours.
    Chairman Gordon. Good. Thank you. Mr. Hall, you are 
recognized for five minutes.
    Mr. Hall. Mr. Chairman, Mr. Rohrabacher has I think two 
other committees he is supposed to be attending now. I want to 
let him go ahead, and then I will stand in his position to 
speak.
    Chairman Gordon. Without objection. Thank you.
    Mr. Rohrabacher. Thank you very much, and welcome aboard, 
and we look forward to working with you.
    When you are talking about international cooperation, just 
one note. Those of us who have been around here a long time 
realize that one area that we can, that we have had cooperation 
internationally and an area that can be expanded upon deals 
with cooperation in space technology and space endeavors.
    We have challenges that have not been addressed 
internationally, although I have spoken to the leaders of 
various space agencies in Europe and in Russia and various 
parts of the world, Japan, and they are very cognizant of the 
fact that we do not have a strategy right now to either clear 
space debris or deal with near-Earth objects that may at some 
time be identified as a threat to the planet.
    So I might note that I am looking forward to working with 
you and the Administration to see how we can set up better 
cooperation internationally on these two vital areas that just 
really need some work.
    Another area I would like to point out to you is that while 
you are focused on science and technology issues, there are 
some legal issues that go directly to America's competitiveness 
and our ability to remain a technological leader in the world. 
And one is the patent issue, which does not go through this 
committee, but there will be a patent bill on the Floor within 
the next few months, and let me just note this bill like the 
many bills that have been before it in the last 10 years, is a 
bill that has been put together by very powerful, special 
interests in this society, namely some 15 mega corporations or 
international corporations, who are trying to destroy the 
patent system. They no longer want to pay royalties to the 
little guy, and these people have--these co-corporations have 
been continually brought to court as infringers, and they are 
just trying to change the whole structure so the little guy 
can't enforce his patents. And that is a very important segment 
of America's success is the strong patent protection that we 
have had.
    One last issue is, again, back to space. The Chinese now, 
and I understand this Administration is leaning in that 
direction, are trying to break into the space launch market. If 
you want to deal a death blow to America's high-tech industry 
in terms of aerospace and especially the space rockets and 
missiles, let the Chinese get involved in taking the technology 
they stole from us 10 years ago and using it against us as 
competitors in the world market.
    Those are just three things that I thought I would throw in 
your direction. If you have any comment, go right ahead.
    Dr. Holdren. Thank you very much. I will make brief 
comments on each of those points.
    First of all, I very much agree with you that both space 
debris and near-Earth objects are important issues that are not 
being fully attended to at the moment, and we need to get 
organized to do that. We do propose to stand up to Space 
Council again and have it address some of these tough 
questions. We have got some people on the President's Council 
of Advisors on Science and Technology who are experienced in 
space and interested in those issues. And I have spoken with 
the acting NASA Administrator, Chris Scolese, who is also 
interested in getting better organized to address those 
particular problems, and I am sure the new NASA Administrator 
whom we hope to name soon will share those concerns.
    On the patent issues, intellectual property is clearly a 
big issue that cuts across the science and technology domain, 
innovation, the economic domain. We have a new Chief Technology 
Officer, Aneesh Chopra, who is Assistant to the President and 
CTO but also will, we trust, be confirmed by the Senate as the 
Associate Director for Technology in OSTP. He is deeply 
knowledgeable about those issues and interested in them. I 
think there is going to be an appointment, another appointment 
in the White House in this area.
    Mr. Rohrabacher. If you and he could take a very close look 
at that bill and figure out who is behind it, and we have 
stopped them 10 years now, but these are very powerful 
interests.
    Dr. Holdren. We will certainly be taking a look at that. 
This is not my personal domain. That is I cannot claim any 
expertise in patent law, but we do have folks on board who do, 
and we are going to be working across the agencies, including 
with the NEC----
    Mr. Rohrabacher. Thank you.
    Dr. Holdren.--to try to get that right.
    On the China issue and China being in the launch business, 
I think it would probably be an overstatement to say the 
Administration is leaning in the direction of facilitating 
that. In one interview I said with respect to the gap in launch 
capability that we ought to look at China. I think looking at 
China is a long way from leaning towards doing any particular 
thing. I am well aware, as is the rest of the Administration, 
that there are some downsides and big obstacles to working with 
China in that domain, but there are also some benefits even to 
looking at China in terms of the situation we are in terms of a 
gap and our complete dependence on the Russians during that 
gap. It is a little unsettling as well.
    Chairman Gordon. Thank you, Mr. Rohrabacher.
    Mr. Rohrabacher. Thank you very much.
    Chairman Gordon. And Mr. Miller is recognized for five 
minutes.
    Mr. Miller. Thank you. Dr. Holdren, I know, I am sure you 
know that this committee has been concerned with scientific 
integrity issues for some time, and I applaud the statement of 
principles on scientific integrity that the Administration has 
already issued. You all had said all the right things, and I am 
confident that you will do all the right things as well.
    But a lot of times the same conduct may either support 
scientific integrity or attack it, depending on what the motive 
is, why you are doing it. There may be perfectly good reasons 
to have someone sit in on a meeting between someone from the 
press and the scientists. It is not always a political minder 
there to intimidate.
    So I am sure if you set as your purpose and today 
throughout government that you want to support scientific 
integrity, that by itself will do a world of good.
    One of the abuses of science has actually taken the form of 
a claim for a need to do more. We need to have more science, 
and you will never find a scientist who will say we don't need 
to do any more research, but that has been used as a pretext 
for inaction. And that is particularly through OIRA, the Office 
of Information and Regulatory Affairs, at OMB, has been 
probably the agency that has done more to suppress scientific 
integrity or attack scientific integrity than any others.
    And frequently it is by claim the need better and better 
science before acting at all. Formaldehyde. There is--I am sure 
you know--the Integrated Risk Information System, the IRIS 
System under EPA, there was an initial listing--that is now 
such an exacting process that with 700 new chemicals entering 
widespread commercial use every year, the IRIS System is 
producing two new listings a year.
    But they are very carefully considered listings. 
Formaldehyde was first listed in the '70s, it has been under 
review since the late '80s. EPA was preparing to revise their 
listing to say that we should look at Formaldehyde exposure 
with much more alarm than what our '70s review suggested, and 
that was subjected to a review by the National Cancer 
Institute, and there has been talk of now needing a review by 
the National Academy of Sciences of the National--of the NCI's 
review.
    Have you talked with Professor Sunstein about his view of 
science and the role of science and the need at some point to 
act on science without waiting for the answer to end all 
answers?
    Dr. Holdren. Thank you. I guess I could be brief and say 
yes on all accounts, but I will answer in a little more detail.
    First of all, on the scientific integrity issue generally, 
I agree with you in the implication that it is complicated 
terrain, and sometimes in the name of science integrity one 
could do things that were not helpful. One could imagine 
situations in which you suppose that science integrity means 
that science is the whole answer to everything, and that there 
is no proper place for values, politics, and other 
considerations. None of us in the Administration believe that. 
We understand that science is an input to policy-making, but 
that other factors are always going to matter, and science 
integrity doesn't mean that science has to be the determiner of 
all results and all circumstances.
    We are doing a very careful job of trying to construct 
recommendations in response to the President's Executive Order 
that have started with soliciting input from all of the 
departments, agencies, and offices about what their current 
practices are, about what they think about what is working and 
what isn't, what their concerns are in respect to balancing the 
different considerations that have to enter into procedures and 
practices and guidelines. And we are going to shortly open that 
process up for public comment as well, and I believe in the end 
that we will have a set of recommendations for the President on 
science integrity that will be both helpful and suitably 
balanced.
    With respect to OIRA, the answer is, yes, I have talked to 
Professor Sunstein, who I think will prove to have a balanced 
position on this. We have actually exchanged a number of our 
writings. He is well aware of the need to act on imperfect 
information, because as we all know, information is never 
perfect. We never know as much as we would like. People in 
politics, of course, understand that you are making decisions 
every day on the basis of incomplete information about the 
problems you nonetheless have to decide on.
    People who say we don't have enough information to decide 
should understand that not to act is also to decide, to make a 
decision in favor of the status quo. I think we are going to 
get that right. I think Cass Sunstein is a very smart and very 
reasonable person, and whatever OIRA's shortcomings in the past 
have been I would have confidence that he will move to fix 
them.
    Mr. Miller. I know my time is close to having expired, but 
the need for more scientific exactness was--yes, there is 
obviously always a need for that, but that was frequently used 
by OIRA as a pretext for inaction. They wanted not to act, and 
they used a lack of scientific exactness, the need for more 
precision as a pretext for not acting. So it is, again, a lot 
depends upon what you are trying to do, what your motive is.
    Dr. Holdren. I agree, sir, that that has been a problem, 
and my point is not to deny that that is a real problem. It has 
been a real problem, but I believe we are going to move to fix 
it because this Administration is not interested in using 
uncertainty as a pretext for inaction.
    Chairman Gordon. Thank you, Mr. Miller, and thank you for 
your leadership on the Investigations and Oversight 
Subcommittee.
    Mr. Hall is recognized for five minutes.
    Mr. Hall. I thank you.
    Dr. Holdren, in my opening statement I alluded to President 
Obama's announcing the goal to, ``devote more than three 
percent of our gross domestic product to research and 
development,'' and I stated we don't have any further 
information on how the Administration plans to meet this goal. 
And I also stated that budget documents released by your office 
do not even mention it. That may not have been completely fair 
with you, so let me write you a letter to that effect and give 
you a chance to look at your records and give me an answer on 
that.
    I want to ask you something else while I have the time 
here, though. In DOE's fossil fuel, fossil energy R&D budget, 
the Administration has zeroed out the Oil Petroleum 
Technologies Program and recommended the Ultra Deep Water. Are 
you familiar with that, the Ultra Deep Water Provision? It is a 
provision I have tried to pass for 10 years, and I got it 
passed once, it died in the Senate. Like a year and a half ago 
we put it in the Energy Bill, I rode west with the President, 
he signed it there with me watching him, and since then he has 
tried to--he tried to zero it out, too.
    But I want to talk to you about that, because I really want 
you to look at that very closely, and I am giving you my 
reasons now. In a hearing back in March of this committee, 
Secretary Chu stated in response to a question that I asked 
him, ``the type of research that you just described, for 
example, improving our ability to recover oil from reservoirs, 
I think it is appropriate for the Department of Energy to be 
funding things like that.'' How do you explain this 
discrepancy?
    And we are talking about five million for the Oil 
Technologies Program and while the Ultra Deep Budget is 50 
million a year, that amount of money, according to statute, 
comes from funds generated from federal lease royalties and 
rents and bonuses paid by oil and gas companies and not from 
taxpayers.
    That is what I want--I hope you will understand. It is not 
just a technology nor an energy bill. It is both technology and 
industry because we sought the aid of several universities, and 
it is, I think, a little bit interesting that two of the 
universities that we sought aid from and are receiving aid from 
and are working with and are paying for aid, were Stanford and 
MIT, where you have an aeronautics engineering and theoretical 
plasma physics degree from MIT or Stanford or both. So you know 
something about that and have probably been involved with it.
    I hope you have, because I think you are a fair guy, and I 
think you know that if something where we have a provision 
where we pay to get technology to get energy up out of the 
basement, and we can't get it to the top but we buy technology 
that helps us get it to the top, and we pay for that technology 
out of the energy we get, and we don't get that energy if we 
don't get that technology, we have got the technology, and we 
need to get the energy at no cost to taxpayers.
    And President Bush turned his back on it because he was 
getting some heat on thinking that they would help the big 
majors. The majors don't find stuff like that. They have--they 
buy it from little people that look for it and find it. This 
doesn't cost the taxpayers anything. We get energy that we 
wouldn't get if we didn't have that technology from, not just 
Stanford and MIT, but Penn State, University of South Carolina, 
University of Texas at Austin, Ohio State, and others. There 
is, I think, 15 or 20 that are working with us and are 
providing that technology that we need.
    Please look at that very closely because it is going to 
come across your desk sooner or later to try to take a shot at 
that. President Bush took a shot at it, we turned him down on 
the Floor, and I think most everybody on this committee here, 
Republicans and Democrats, voted against curtailing a facility 
like that that will help us get rid of our obligation to the 
Arab states and make us less dependent upon them, and it 
doesn't cost our taxpayers anything.
    I just don't see how anybody can turn their back on that. I 
implore upon you to look closely at it. I don't even ask you to 
comment on it now.
    Dr. Holdren. Congressman Hall, I will. I first have to say 
that as the Chairman said, you are a persuasive man. This is 
not something that has been in my area of focus. I don't know 
the details of the history of it, and I wouldn't presume to 
answer for Secretary Chu, but I will, as you suggest, take a 
look at it and become better informed about it so that when it 
comes across my plate, I will have something constructive to 
say.
    I do also want to say just a word about the three percent 
target. We were not deliberately avoiding that issue----
    Mr. Hall. I didn't think you were.
    Dr. Holdren.--in my testimony. The current level of R&D in 
the United States is a fraction of GDP. It is about 2.6 
percent. Three percent would be above the peak of almost 2.9 
that was reached at the height of the space race.
    Currently, of the 2.6 percent or so that is going to R&D of 
GDP, about one-third of that is coming from government, from 
the Federal Government and about two-thirds is coming from the 
private sector mostly and other smaller entities.
    If you ask how do you get to three percent, there are two 
parts to that problem. One is how and where do you boost the 
federal contribution, and the other is how do you create the 
incentives to boost the private contribution. We think we are 
already creating a good part of the incentive for the private 
contribution by making the research and experimentation tax 
credit permanent. If the President's commitment to spend $150 
billion over 10 years on clean energy technology is made a 
reality, that would actually be a very large down payment on 
getting the government's contribution up to the level it would 
need to be to make that target.
    But I am happy to respond in more detail if you would like.
    Mr. Hall. And I thank you.
    Chairman Gordon. Thank you, Mr. Hall.
    Ms. Dahlkemper is recognized for five minutes.
    Ms. Dahlkemper. Thank you, Mr. Chairman. Dr. Holdren, 
welcome.
    I come from an ag industry. I am from an ag district, and I 
am on the Ag Committee, and so my question is regarding 
biomass. The EPA recently released a draft rule on the 
Renewable Fuel Standards Program. At the same time the 
President established a Biofuels Interagency Working Group, 
which will work with the National Science and Technology 
Council.
    What kind of role will NSTC play in developing and dealing 
with environmental sustainability of biofuels, and will NSTC be 
monitoring the science around emissions of indirect land use, 
which I know there is a lot of concern about which, you know, 
referring to the potential affects of the cultivation of 
biomass and greenhouse gases.
    Dr. Holdren. Very good question. First of all, the NSTC, 
which, of course, is the body managed by OSTP that tries to 
coordinate all the interagency science and technology issues 
that arise, certainly will be deeply involved in this one. That 
means that the Department of Agriculture will be represented, 
along with EPA, OSTP, DOE, and the other relevant agencies. I 
have already had some conversations with all of them about this 
particular issue. It is an important one. It is a complicated 
one. Indirect land use is certainly part of it.
    There is a range of opinions about the state of science 
regarding indirect land use impacts of growing biofuels. It is 
under what circumstances would a U.S. choice to devote more of 
its agricultural land to biofuels create changes in land use 
elsewhere that themselves would have greenhouse gas 
implications.
    That is something we will be looking at very closely. We 
will be looking at the sustainability of biofuels as a general 
matter, very closely. Again, it is one of those complicated 
issues in which we are going to have to exercise ourselves to 
get it right, but I believe we will ultimately get it right. I 
would not venture to predict a particular set of outcomes at 
this point, but it is on the table. It is going to be looked at 
in an interagency way.
    I have spoken with Secretary Vilsack about it as well as 
with Administrator Jackson, and I think we will succeed in 
working together to figure it out.
    Ms. Dahlkemper. I guess part of my question is as we look 
at the Energy Bill in front of us, you know, soon, some time, 
where do you think that research is currently in terms of using 
it as we go forward with that initiative?
    Dr. Holdren. To answer that I think would be prejudging a 
bit what the--what we will be asking the appropriate 
subcommittee and the NSTC to figure out.
    Ms. Dahlkemper. Okay. Thank you. My other question, I will 
stay on the subject of biomass, in January of this year the 
National Science and Technology Council Committee on Science 
released a report which includes a five-year plan for the 
National Plant Genome Initiative. And over the last several 
years biomass for energy production has become an area of focus 
for many plant genome initiatives.
    We have also heard that some of the research is too focused 
on energy and not other characteristics of plants such as 
drought resistance. Do you think there is enough research on 
the multiple beneficial characteristics of plants?
    Dr. Holdren. My general impression is that we need to be 
doing more there. I myself have given talks about adaptation to 
climate change would stress the importance of developing crops 
that are heat resistant, that are drought resistant, that are 
salt resistant. Again, without claiming deep expertise in that 
domain, my impression is that we need to be doing more.
    Ms. Dahlkemper. Okay. Thank you. I yield back.
    Chairman Gordon. Mr. Olson is recognized.
    Mr. Olson. Thank you very much, Mr. Chairman, and Dr. 
Holdren, welcome to the Committee. I appreciate your testimony 
today. All of my questions are going to focus on NASA and the 
future of our Human Space Flight Program.
    As a Member of Congress who is fortunate to represent the 
Johnson Spacecraft Center, the home of our Human Space Flight 
Program, I can tell you there is a lot of consternation and 
concern over its future, getting an administrator appointed.
    And in your written testimony you listed eight of the most 
important scientific issues facing the Administration. The 
future of American human space flight and the challenges NASA 
is facing was not among them. We are now nearly four months 
into the Administration, and a NASA administrator is yet to be 
named, much less nominated and confirmed. The Administration 
has recently announced a Blue Ribbon Task Force to review our 
Human Space Flight Program without any indication as to what 
concerns the President has about our Human Space Flight Program 
that he feels warrant an independent review.
    The GAO listed retirement of the Space Shuttle as one of 
the top ten issues facing this Administration. That was 
Administration wide, not just within OSTP.
    Now more than ever NASA needs leadership and administration 
that is committed to our goal of reaching the Moon by 2020, as 
a national priority.
    My question to you is where does the Administration 
prioritize human space flight, and where do you see the role of 
your office in giving priority of NASA's and our nation's Human 
Space Flight Program?
    Dr. Holdren. Thank you, Congressman. Let me start by saying 
that the positioning of NASA in the testimony was not in those 
items briefly listed at the beginning which are initiatives 
that we already have well under way, but there is a big 
treatment of NASA in the middle in which we talk about, among 
other things, the President's emphatic commitment to 
continuation of the Human Space Flight Program and its 
importance.
    I might mention that the President has demonstrated his 
interest in that program in a number of ways. We had a terrific 
event when in the previous Shuttle flight our astronauts were 
on the International Space Station, and we orchestrated a video 
link from the Roosevelt Room in the west wing of the White 
House. The President, surrounded by middle school science 
students and a number of Members of Congress with close links 
to the Space Program, talking with the astronauts. When the 
astronauts came back, by the way, I was able to introduce them 
to the President in the Oval Office. This was just about a week 
ago. He is absolutely enthusiastic about space and about the 
manned space flight, the human space flight component of that. 
He lights up every time space is on the agenda.
    As you know, we have some challenges. Those include budget 
challenges. We are in a time of budget stringency. We are not 
able to do everything that we would like to do across the 
domains, even the high priority ones, but the reason that we 
are standing up this Blue Ribbon Panel, chaired by Norm 
Augustine, is to take a fresh look at what options we have to 
maximize our capacity to do the things we need and want to do 
in the Human Space Flight Program in the face of the budget 
challenges that we confront.
    That panel under Norm Augustine is being tasked with 
looking at what we can do to minimize the gap in the capacity 
to put Americans in space on American launchers. They are being 
tasked to look at the workforce issues and the maintenance of 
capability between the end of the Shuttle Program and the 
beginning of the successor program. They are being tasked to 
look at the International Space Station and what we can do to 
extract more of the value from what we have already invested 
there.
    These are all issues that are important to the President, 
and the jobs issues that I know are of concern to all of the 
Members of Congress who have Districts and states in which 
there are major space flight activities. Those are very 
important to the President as well. This President is not 
interested in losing jobs in this country at this point. He is 
interested in maintaining them and expanding them, and one of 
the challenges to the Augustine panel is to try to help us 
figure out how to better do that under the constraints that we 
face.
    Mr. Olson. Yes, sir, and jobs are certainly important, but 
it is critical that the United States maintains its leadership 
as the human space flight country. We have had it for over 50 
years. We shouldn't give it up to any other country in the 
world.
    About the Blue Ribbon Panel, it sounds like then everything 
is on the table. They are going to be able to look at budget, 
architecture, and overall direction of the program. Is that a 
fair statement?
    Dr. Holdren. Well, it is close to a fair statement. The 
current guidelines for the review are to examine options that 
can be carried out within the budget trajectory laid out by the 
OMB and the fiscal year 2010 request. If Norm Augustine and his 
panel conclude that something needs to be said about the 
implications of that constraint, I expect it will be hard to 
keep them from saying it.
    Mr. Olson. I see that I am out of time, and I appreciate 
your answers. Thank you, sir.
    Ms. Edwards. [Presiding] Thank you, Mr. Olson.
    Ms. Kosmas. Go ahead.
    Ms. Kosmas. Thank you, Mr. Chairman. Thank you, Dr. 
Holdren, for being here today, and thank you for the 
opportunity be on the conference call with you earlier.
    I come from central Florida, and Kennedy Space Center 
happens to be in my district, so I am echoing many of the 
comments said by Congressman Olson and express my deep concern 
for the potential job losses there.
    Having said that, we are happy to hear you reiterate that 
the President is, as he told me, a space guy and that he is 
very interested and enthusiastic about the Manned Space 
Program. Your comments say that you are fully aware that 
nourishing and fully utilizing the country's world-leading 
capabilities in science, technology, and innovation are what 
makes us a great country, and you also referred to the '60s 
space race. And I assume that I can put those together and 
suggest that you and the Administration do want to see us 
continue to be the number one country in manned space 
exploration.
    Having said that, again, I register some of the concerns 
earlier mentioned and wanted to ask a couple of questions 
specific, again, to space exploration. Recent documents show 
that we might not be able to meet the goal of returning to the 
Moon by 2020, and Acting Administrator Scolese has stated that 
the review board will be examining the post-2014 goals, 
including plans for going to the Moon and to Mars.
    Can you tell us what the vision is for the goals of human 
space exploration and its importance to this Administration? Do 
you know what the vision is at this point?
    Dr. Holdren. Well, I can answer part of that question. 
First of all, the vision is in agreement with your comments and 
the previous ones that U.S. leadership in space is critical and 
that we need to maintain it.
    The second part of the vision is we need a balanced program 
in space, has to include the human space flight component, 
robotic exploration in space is important, too, but we need 
both. And, in fact, we need a larger balance within NASA that 
includes space exploration, Earth observation, fundamental 
science, aeronautics, and more.
    And one of the difficulties that we face, is that in the 
last Administration there was a grand vision for human 
exploration of space, but the budget was never provided to 
achieve that vision. And the absence of the budget to achieve 
the vision led, indeed, to raiding a number of the other 
budgets within NASA to try to get on that trajectory, still not 
successfully, because there wasn't enough money to be raided in 
those other pots to really get us on the trajectory to achieve 
the vision that President Bush had articulated.
    And so we are starting where we are, unfortunately, in 
terms of the gap between our aspirations and our means, and 
what that Blue Ribbon Panel headed by Norm Augustine has as its 
primary challenge is figuring out how to reduce the gap between 
our aspiration and our means. I can't prejudge what they will 
find in terms of what our options are for reducing that gap, 
but I can assure you, being myself an old friend and colleague 
of Norm Augustine's, that if anybody can figure out the best 
approaches available to us, it will be that panel. And we will 
be, I think, announcing the names of the other panelists 
shortly. They are in vetting now, but it is going to be a very 
impressive group.
    Ms. Kosmas. Thank you for that answer. I think there are 
many of us who are acutely aware of the fact that the budget to 
go with the vision never matched in the past and that that has 
to some degree put us in the situation where the potential for 
a gap is huge and could be very devastating in terms of job 
retention.
    Having said that, the recent announcement that the Russians 
intend to charge us now $51 million per seat, which is 
significantly greater over the last couple of years than what 
we originally anticipated, do you perceive that there might be 
some change in our position on being reliant on the Russians 
for manned space flight to the International Space Station?
    Dr. Holdren. I know there have been very recent 
negotiations with the Russians about the terms of our access, 
and I am not aware of anything up until now that indicates that 
we are looking at fundamentally changing that relationship. It 
does, when the price goes up very rapidly, indicate the perils 
of monopoly, and again, I think at least starting to think 
about other options could have some benefits in that domain, 
but we certainly have no plans at the moment to go in a 
different direction.
    Ms. Kosmas. Thank you. I think the suggestion that we would 
be paying the Russians to fly our astronauts there at this time 
of critical economic crisis within our own country is hard for 
many people to swallow and the potential also to lose our 
professional workforce during that five-year gap is also a very 
serious problem in my district. And so I hope that we will take 
a very close look at what our options are there.
    Ms. Edwards. Ms. Kosmas.
    Ms. Kosmas. Yes.
    Ms. Edwards. I am going to interrupt you just a bit because 
we are going to be called for votes, and Members are welcome to 
submit their additional questions for the record, and I want to 
go ahead to Mr. Lipinski.
    Ms. Kosmas. Thank you.
    Ms. Edwards. Thank you.
    Ms. Kosmas. Thank you, Dr. Holdren.
    Mr. Lipinski. Thank you. I will try to keep this short, but 
it is great to have you here, Dr. Holdren. Congratulations. 
Look forward to working with you, especially as Chairman of the 
Research and Science Education Subcommittee. There are a lot of 
good things that I know we will be doing in the next few years, 
especially looking forward to working on NSF reauthorization.
    I wanted to ask you about the Energy Innovation Hubs. I am 
very happy about the President's commitment to transformative 
energy technologies. It is great to see that commitment there, 
that enthusiasm.
    My understanding is the Energy Innovation Hubs are inspired 
by--for the successful legacy of industrial labs like Bell 
Labs. Unfortunately, we don't see those anymore, but I want to 
ask, do you see any of these Hubs being located in industrial, 
academic, or National Lab settings? And the second part is what 
culture do you think would be best for technology transfer, 
which is always a critical issue that we are facing?
    Dr. Holdren. Thank you for those questions. They are good 
ones. I think, first of all, the Energy Innovation Hubs notion 
is not to build entirely new institutions, not more bricks and 
mortar, but to use existing institutions in innovative ways to 
promote energy innovation. In my judgment they will probably be 
located in a couple of different kinds of settings. Some may be 
academic, some National Lab, maybe some industrial.
    I think the most important thing is that they involve 
partnerships among all of those sectors. We should be using the 
resources, the insights, and the perspectives of the academic 
community, the private sector, the National Laboratories 
together. And when you talk about technology transfer, that 
underlines the importance of having the private sector 
intimately engaged, because it is the private sector that has 
the best understanding of the markets in which these 
technologies ultimately have to work if they are going to 
succeed.
    So I believe that as a historical matter we have under-
utilized the potential of partnerships of these sorts, and I 
think the innovation hubs definitely have an opportunity to 
begin to rectify that.
    Mr. Lipinski. I certainly agree with you that the--working 
in the partnerships and encouraging the partnerships is really 
critical, and that is something I look forward to working with 
you on, doing what we can to do more to encourage that.
    One other question I wanted to ask you. Well, first of all, 
I wanted to say as a former social scientist, I received a 
political science dissertation improvement grant when I was in 
grad school. I was a little disappointed that the Directorate 
for Social, Behavioral, and Economic Sciences had recommended 
in the budget the smallest increase, and I know that all six of 
the directorates were equally funded, equally treated I should 
say, in the Recovery Act.
    But what I am more concerned about right now, it is great 
to see all this funding going into NSF in the Recovery Act. My 
concern is what happens next after that funding is gone and you 
rightfully said we have to consider not just what is budgeted 
right now but also what was in the Recovery Act. But what 
happens next? What happens when we get to 2011?
    Dr. Holdren. Well, first of all, we share your concern 
about the potential boom and bust characteristics of funding 
research. If you have a big infusion like the Recovery Act and 
then it goes away and what do you do? So there are a couple 
approaches to that, and we are trying to work them all.
    One is to get the baseline budgets up so that when the 
recovery money runs out, you don't have a big plunge in the 
money that is available. The second thing is to have some of 
that Recovery Act money go into multi-year grants where it 
doesn't all have to be spent in the two years in question. It 
has to go out the door in the sense of commitment. But the 
money in terms of the research that is done can be extended 
over a longer time.
    Another aspect of it is putting some of that money into 
facilities and equipment that don't lose their utility and 
their value at the end of the Recovery Act period. All three of 
those strategies are being employed to try to minimize any boom 
and bust characteristic.
    Ultimately we remain committed to the President's goal of 
doubling the NSF budget over a fairly short period of time, and 
we think that that ramping up will take care of an important 
part of this problem.
    Mr. Lipinski. I also look forward to working with you. 
Thank you.
    Dr. Holdren. Thank you.
    Ms. Edwards. Thank you, Mr. Lipinski.
    And I recognize Dr. Ehlers for five minutes.
    Mr. Ehlers. Thank you, Madam Chairman, and I congratulate 
you on your rapid ascension to the Chairman of this committee. 
I have been here 15 years, and I still haven't made it, and you 
did it in 15 months or less.
    Dr. Holdren, good to see you again. Congratulations on your 
appointment. I was overjoyed when you received the appointment 
from the President. You have done a lot of good work for this 
country in various tasks that you have been--that have been 
placed in your lap, and I am sure you will do very well in this 
job, too. So accept that in the spirit in which it is offered. 
You may not receive very many compliments as things go along. 
You know how that goes.
    I just wanted to raise an issue about the National Science 
Foundation. The overall budget going up, I believe, something 
like 8.5 percent, which we are all delighted about. I have 
personally worked very, very hard to get NSF increased over the 
years.
    My concern is this EHR, Education and Human Resources, 
which has the lowest increase, about 1.5 percent. I spent a 
good share of my life, both before the Congress and in the 
Congress, trying to improve math and science education in this 
country. We are making substantial progress.
    The NSF budget under the previous Administration at a 
certain point someone in OMB apparently decided that since we 
had started the math and science program in the Education 
Department that NSF no longer needed any money. So they zeroed 
out that portion of the NSF budget. We fought very hard to get 
it back in. We got some increase, but it took quite a jolt that 
year, and it has never recovered.
    I was hoping that under this Administration that would be 
changed and that the Education and Human Resources would get an 
increase comparable to the total overall increase in NSF's 
budget, and I would appreciate your comments on that or your 
explanation.
    Dr. Holdren. Well, Congressman Ehlers, first of all, thank 
you for your kind remarks at the beginning. I am going to 
bottle those and save them for the grimmer moments. I have 
sometimes said that this job that I have taken on is mostly 
like a drink from a fire hose except when it is a drink from a 
flame-thrower, and I do expect to experience a good deal of the 
latter as well as the former.
    On the NSF EHR funding recommendations, one of the things I 
would say about that is that in recent years the pattern of how 
education gets supported at NSF has changed in the sense that 
across virtually all of the directorates education is 
explicitly a part of the mandate. So it is not just 
concentrated in EHR anymore. All across the agency grantees are 
being asked to develop education components of whatever it is 
they are working on.
    It makes it harder to determine easily exactly how much 
money and effort is going into education at NSF, but my sense 
of things is that the NSF leadership as well as the 
Administration are very strongly committed to advancing the 
STEM education, the science, technology, engineering, and math 
education through that agency and others. We are committed to 
tripling the number of NSF graduate fellowships over a period 
of three or four years. We are advancing STEM initiatives 
through the Department of Education, which you mentioned, as 
well as in other dimensions.
    So I am basically optimistic. We have a big challenge there 
as you very well know in terms of how far we have to go in 
lifting the quality of science, technology, engineering, and 
math education from preschool to graduate school, but we are 
committed to doing it. I think we are going to get it done with 
the help of folks like you and the rest of this committee.
    Mr. Ehlers. Well, I appreciate the comments and the 
reassurance, and I was aware that, in fact, it is expanding 
across the various agencies and departments within NSF, but to 
have the overall drop 1.5 percent, there still needs to be a 
lot of direction from the--central direction to this issue, and 
I can say that having spent so many years in it. It means a lot 
of different things to a lot of different people, and I would 
worry about not having adequate direction, centralized 
direction as to what the various departments or groups or 
agencies or what have you will do.
    I am also very concerned about working with the Department 
of Education. That was sort of an add-on in the last few years 
of the Bush Administration, and I very much appreciate what was 
done there, but I don't think they really had the time and the 
personnel to devote to that effort that it really needs. And 
you are the logical one to bring that altogether and make sure 
that the Department of Education is on the right track vis-a-
vis NSF.
    And also I would hope you can assist in getting additional 
money for EHR. I am not that worried about the graduate 
fellowship part. I am worried about the K-12 educational part, 
which is where we really are failing as a nation.
    And I have many more ideas on this, and I would be 
delighted to meet with you later and discuss them as to what we 
can do, what we should be doing, not just in NSF but since you 
have a very broad portfolio, I am sure you can have an impact 
in many areas on that topic.
    Ms. Edwards. Thank you, Dr. Ehlers.
    I am next in order actually in this list and so I am going 
to pretend that I am down the line. I just will only use the 
time to just share with you that I represent a district that 
also services Goddard Space Flight Center and worked at the 
Space Program for a time, and I have to tell you my concern 
when looking both at the budget and the goals is that the 
budget doesn't quite match the goals, especially in the out 
years for the Space Program, and so I am looking forward to 
hearing more from you about how you see where manned space 
flight, human space flight fits into NASA's long-term goals, 
how we meet the goal of getting to the Moon in 2020, given the 
budget.
    I am also concerned, Dr. Holdren, that there is--it seems 
that we see an increase in the budget for the fiscal year 2010, 
then a slight decrease, and then, you know, essentially kind of 
flat line but increased responsibilities. And so I look forward 
to a review that enables us to have a budget for NASA that 
really matches the goals rather than expectations for the 
agency that it can't possibly meet given the budget.
    And I will express another concern and allow you an 
opportunity to respond to it, but it is that we are, you know, 
you are in the process of a review being conducted for--on 
human space flight, but we don't have an administrator, and 
that review is due by August, and so I hope that it will be 
conducted with the kind of leadership that we need to make sure 
that we are operating off of results that really match the 
future needs of the agency.
    And we have just been called for a vote but----
    Chairman Gordon. [Presiding] Ms. Edwards, if you would 
yield just a moment. I think we have at least 10 minutes, and 
so let us try to continue. I would like, as you know, let us 
try to allow everybody to have a chance to speak.
    Ms. Edwards. Absolutely, and Mr. Chairman, come on back 
down and take your seat.
    Dr. Holdren. May I just say that, number one, I think it is 
the perception that there is a mismatch between budget and 
goals, which is one of the drivers of calling for this review 
and saying, you know, how are we going to deal with this? And I 
am certainly looking forward to the results of that review as 
much as anybody.
    I also have some reason for optimism that the President 
will be nominating a permanent administrator for NASA very 
shortly and that that will put at least that concern to rest, 
because I think it will be an outstanding person. The 
President's concern has been to get the right person for that 
job. The fact that we don't have one until now is not for lack 
of effort.
    Chairman Gordon. Ms. Edwards, do you have any other follow-
up?
    Ms. Edwards. Thank you. I will yield, Mr. Chairman.
    Chairman Gordon. Thank you, Ms. Edwards, and Mr. Tonko is 
recognized for five minutes.
    Mr. Tonko. Thank you, Mr. Chairman. Dr. Holdren, your 
announcement, your appointment was tremendously positive news, 
and I thank you for your willingness to serve.
    My question is on green buildings, and as you know, last 
October when the National Science and Tech Council issued its 
report on net zero energy and high performance buildings, there 
was a lot of R&D that they focused on. Obviously our buildings 
are our major concern out there as it relates to energy policy 
but also a major bit of solution.
    So just how do you see the coordination with DOE and other 
agencies including where you sit, how all of that is going to 
come together and how we are going to invest in getting to that 
green building goal?
    Dr. Holdren. A couple of points, Congressman Tonko. First 
of all, I agree with you about the importance of the building 
sector. There is tremendous opportunity there for big 
improvements in energy efficiency and big gains there for both 
in terms of energy supply and environmental impacts.
    And I come from a long background in the energy field where 
I started the Interdisciplinary Energy Program at UC-Berkeley 
in 1973, at the same time that Art Rosenfeld was starting the 
Building Energy Program at the Lawrence Berkeley Lab adjacent 
to the campus. And I mention that because Art Rosenfeld is now 
an energy commissioner in the State of California, remains one 
of the leading experts on how you get this stuff done in the 
building sector, and he has been pursuing a number of 
innovative approaches including a white roofs approach that 
both reduces the energy use in the building in the summer by 
reflecting more of the sunlight that would otherwise be heating 
the building, overheating the building, and also addressing in 
the process some of the global climate change issues. We have 
big opportunities there.
    The other asset I would mention is Dr. Steve Chu, the new 
Secretary of Energy, who is deeply knowledgeable having been 
the director of the Lawrence Berkeley Lab among other things, 
deeply knowledgeable about the potential of technology in this 
area and also a good friend of mine. We probably speak five or 
six times a week, so I am not particularly worried about our 
ability to coordinate approaches to these challenges in the 
energy domain between OSTP, the Department of Energy, and I 
should mention that Secretary Donovan in Housing and Urban 
Development is also much seized with the importance of this 
issue and is himself meeting regularly with Secretary Chu and 
with me and with others to figure out how to get this done in 
an interagency way.
    Chairman Gordon. Mr. Tonko, if you don't have just a really 
burning question, could--or if you need to follow up, do that 
and then let us try to have maybe one question a piece for 
those that are left.
    Mr. Tonko. I will just make mention that at NYSERDA where I 
was just before this stop, people were thrilled with your work, 
and we are looking forward with anticipation.
    Thank you, Mr. Chairman.
    Chairman Gordon. Thank you, Mr. Tonko.
    Mr. Lujan for one question if that is okay.
    Mr. Lujan. Thank you, Mr. Chairman. If I may, as opposed to 
asking a question, if I could just make a couple of quick 
points.
    Dr. Holdren, really happy to be working with you, sir. A 
few concerns. One areas is in the reduction in the area of 
cleanup of waste from weapons production. Recognizing that I 
was very supportive of the increase associated and contained in 
the Recovery Act, but we do have a certain responsibility not 
only in and around our laboratories but also in some of the 
areas where some mining did take place, i.e., the Navajo Nation 
in the State of New Mexico.
    Mr. Chairman, Dr. Holdren, I want to encourage you that as 
we look to utilize some of the investment that we are going to 
be making in energy supply and conservation, specifically in 
the area of energy storage, that we look to some of our Energy 
Frontier Research Centers, one of which is Los Alamos National 
Laboratories, where we are going to be taking seriously our 
responsibility in the area of storage and would encourage you 
to continue to work with our National Laboratories to be able 
to identify solutions to our nation's problems.
    Thank you very much, Mr. Chairman.
    Chairman Gordon. Thank you, Mr. Lujan, and I will remind 
everybody that you can also submit questions to--so, Mr. 
Peters.
    Mr. Peters. Thank you, Mr. Chairman. Dr. Holdren, just a 
quick question. I am from Michigan, and of course, 
manufacturing is under a great deal of stress right now, 
particularly our small manufacturers, and I want to ask a 
question regarding the Manufacturing Extension Partnership 
which you are overseeing.
    Currently in order to pay for these centers one-third of 
the cost comes from the state, a third from the Federal 
Government, and a third from manufacturers, but given the 
significant financial difficulties both of the small 
manufacturers in the area as well as the budget shortfalls of 
the State of Michigan as well, would the Administration be open 
to revising some of these cost structures with the MEP? As you 
know, it provides a very, very valuable function and is 
essential for us to maintain our competitiveness in the 
manufacturing sector. But given the financial melt-down that is 
occurring in Michigan with the auto industry, it is critical we 
maintain that, but it also is putting a stress both on the 
small manufacturers as well as the state.
    What would--how would you respond, please?
    Dr. Holdren. Well, I would say, first of all, I agree with 
you that the MEP is valuable and important, and I am not an 
expert on the details of what might or might not be possible in 
terms of renegotiating the terms, but I will certainly take 
that point back and bring it up with others in the Executive 
Office of the President who have those responsibilities and see 
what we can do.
    Mr. Peters. I appreciate that. Thank you.
    Chairman Gordon. Thank you, Mr. Peters. I will quickly note 
that this committee has had strong bipartisan support for the 
MEP, and we will continue to do that, and we want to work with 
you as we authorize again.
    Ms. Giffords to close us out.
    Ms. Giffords. Thank you, Mr. Chairman. Last but hopefully 
not least, those of us that have been on the Committee for a 
long time know that I sound like a broken record. I talk about 
solar energy a lot. Come from Arizona where we have an 
abundance of sunshine.
    I was pleased to see the President's proposed budget for 
solar at $320 million, which was a significant increase, but 
when I look at the potential, not just for the southwest but 
for the country, even for the planet, it seems to me that if we 
are really going to transition to renewable energies, that is--
that needs to be reflected in the budget.
    So, Secretary, if you could please just address how we can 
possibly continue to improve funding for solar and other types 
of renewable energies in light of the other discussions that 
are happening around budget issues here.
    Dr. Holdren. Well, again, I would note that the President 
is committed to a large increase, this $150 billion over 10 
years for clean energy technology. Certainly a substantial 
chunk of that when it materializes and I hope that will be 
soon, will go to solar energy. There is, as you say, enormous 
potential there. It is one of the technologies where we really 
have the capacity to become leaders in the deployment and the 
development of advanced ways to harness sunlight, and I trust 
it is going to happen. We are going to have a substantial solar 
component in that much bigger clean energy research, 
development, and demonstration budget that is going to be 
coming down the road.
    Ms. Giffords. Thank you, Mr. Secretary. I look forward to 
working with you on that.
    Chairman Gordon. Well, Dr. Holdren, I am sorry we had to 
have an abbreviated hearing today. You have much to bring us. 
We are very interested in working with you, and we will 
continue our conversation, and I will say now that the record 
will remain open for two weeks for additional statements from 
Members and for answers to all the follow-up questions that the 
Committee may ask the witness, and this witness is excused, and 
this hearing is adjourned. Thank you.
    [Whereupon, at 3:43 p.m., the Committee was adjourned.]
                               Appendix:

                              ----------                              


                   Answers to Post-Hearing Questions


<SKIP PAGES = 000>

                   Answers to Post-Hearing Questions
Responses by John P. Holdren, Assistant to the President for Science 
        and Technology; Director of the White House Office of Science 
        and Technology Policy; Co-Chairman of the President's Council 
        of Advisors on Science and Technology

Questions submitted by Representative Ralph M. Hall

Q1.  Please provide the Committee with additional information on the 
President's goal to ``devote more than three percent of our gross 
domestic product to research and development.'' What is the timetable 
for achievement of the goal? Do you anticipate that the public and 
private sector contributions to this goal will increase consistent with 
their current proportions, or are federal investments expected to 
increase substantially more than private investment (or vice versa)? 
What if any policy tools will be pursued to influence increases in 
private R&D investment? How will the President's proposal to increase 
corporate taxes through various means (including auctioning of energy 
emissions permits) impact private sector R&D investment?

A1. In his speech at the National Academy of Sciences on April 27, 
President Obama set an ambitious goal of lifting national spending on 
R&D to three percent of GDP. He did not specify a timetable. Currently, 
about two thirds of the U.S. R&D investment is funded by industrial 
firms, just under 30 percent is funded by the Federal Government, and 
the remainder is funded by State and local governments, non-profits, 
and universities and colleges. Increasing the percentage of GDP devoted 
to R&D from the current 2.6 percent up to three percent would entail 
increases from all of the contributing sectors. The proposals in the 
2010 Budget to make the Research and Experimentation Tax Credit 
permanent and to eliminate capital gains taxation on small businesses 
will be a major step toward encouraging private firms to increase their 
R&D investments, and we look forward to working with the Committee and 
others to find other policy tools to further incentivize private sector 
R&D investments. The Administration's proposals for limiting greenhouse 
gas emissions will create new incentives for private sector R&D 
investments in clean-energy technologies, and part of the revenues from 
auctioning emissions permits will fund new government investments in 
clean-energy R&D.

Q2.  While the role of government in funding high-risk basic research 
is well understood and agreed upon, there is a longstanding debate over 
government's support of companies pursuing later stage development and 
commercialization activities and whether this kind of support catalyzes 
further private activity or is counterproductive and displaces or 
disrupts private capital investment, thereby slowing innovation.

Q2a.  What is the Administration's and your overall philosophy and 
approach to this question, and how will that philosophy result in 
changes to the way various R&D programs are structured?

A2a. Government support of later-stage development and 
commercialization activities can be appropriate in areas of high 
national priority where market failures and other barriers result in 
under-investment or non-investment by the private sector. For decades, 
of course, the Federal Government has funded these activities in the 
defense and aerospace sector where government is the primary customer, 
and has also funded these activities for biodefense countermeasures, 
treatments for rare diseases, clean coal technologies, and other areas 
where relying on private investments alone tends to result in 
inadequate innovation. Carefully selected government support of pre-
competitive R&D and demonstrations can catalyze further private 
activity and address private sector challenges of under-investment in 
the innovation process.

Q2b.  Relatedly, President Obama's proposed to invest $150 billion 
expected to be generated from cap-and-trade revenues into a ``clean 
technologies venture capital'' fund. What is your response to concerns 
that such an activity represents an inappropriate government role and 
that government-run venture capital operations would inappropriately 
interfere in private markets, picking ``winners and losers'' while 
introducing market uncertainties that significantly reduce private 
investment? How will this program be structured to guard against such 
concerns, as well as inappropriate conflicts of interest?

A2b. President Obama has proposed to invest $150 billion over 10 years 
from cap-and-trade revenues on clean energy technologies through a 
broad portfolio of research, early-stage technology development and 
demonstrations, and other appropriate government policies rather than 
exclusively or even primarily on a venture capital fund. A government 
venture capital fund could be a potential tool to address the early 
stages of technology development where there is under-investment by the 
private sector. Use of government funds in this way could catalyze 
investments in technology areas where private venture firms are 
unwilling to invest sufficiently but where the potential for 
contributing to meeting national goals is high. The Administration is 
focused on investing only in projects in which there are market 
failures or other barriers that result in under-investment or non-
investment by private firms. As in clean-energy projects already funded 
in the Recovery Act, we are committed to funding projects through 
competitive, merit-reviewed processes that are transparent and that 
avoid conflicts of interest and the appearance of political 
interference in allocation decisions.

Q3.  Please describe the specific responsibilities that OSTP's 
Associate Director for Technology and Chief Technology Officer will 
undertake, including how such responsibilities may differ from the 
historical role of the Associate Director for Technology position.

A3. The President has called for elevating the importance of technology 
in addressing the Nation's most pressing challenges. To that end, he 
has appointed Aneesh Chopra to serve as our nation's first Chief 
Technology Officer and OSTP Associate Director for Technology. His 
responsibilities will include:

        1)  Facilitating Transformation of the Economy through 
        Technology-Based Innovation: This responsibility builds on the 
        traditional duties of the Associate Director for Technology in 
        convening interagency working groups and working with OSTP, 
        PCAST, and the wider science, technology, and innovation 
        communities on strategies to promote economic growth.

        2)  Addressing Presidential Priorities Through Innovation 
        Platforms: This responsibility likewise builds on the 
        historical role of the OSTP Associate Director for Technology 
        in advancing key technology-based initiatives, which in this 
        Administration can be expected to include health IT, smart grid 
        technology, and education technology, with a focus on ``game-
        changing'' ideas.

        3)  Driving Reliable, Resilient Trustworthy Next-Generation 
        Digital Infrastructure: This responsibility elevates the 
        traditional role of Associate Director for Technology to one 
        serving in a leadership capacity developing the President's 
        Broadband plan and approach to cyber security.

        4)  Instilling a Culture of Open and Innovative Government: The 
        President called for the CTO on his first full day in office to 
        collaborate with the Director of OMB and GSA Administrator in 
        the development of an Open Government directive ensuring 
        Federal Government agencies operate in a more transparent, 
        participatory, and collaborative manner.

    These specific responsibilities build upon the strong tradition 
within OSTP of serving as the lead policy advisor on the promise and 
potential of technology to advance Presidential priorities and national 
interests.

Q4.  The FY09 Omnibus directed NSF to transfer funds to the Coast Guard 
for ice-breaking activities. However, the FYI0 budget request includes 
language that says NSF ``shall only reimburse the Coast Guard for such 
sums as are agreed to according to the existing memorandum of 
agreement.''

Q4a.  What is the current status of ice-breaking services and why the 
change in the budget language from the Omnibus language?

A4a. As directed by Congress, NSF and USCG have been reviewing the 
existing Memorandum of Agreement (MOA) that provides guidance for NSF 
reimbursement to USCG for maintenance and operation of the polar 
icebreakers. In addition, these agencies continue to work together to 
address the implementation issues associated with maintenance and 
training requirements for the POLAR SEA and HEALY. As of 2009, POLAR 
STAR no longer falls under the MOA and USCG will begin refurbishing 
this ship with the separate funding it received for 2009. The 2010 
Request retains budget authority for operation and maintenance of POLAR 
SEA and HEALY with NSF because scientific research is still the 
critical and principal use for these vessels.

Q4b.  Does the Administration intend to assess all U.S. ice-breaking 
needs, including national security and scientific research?

A4b. The Administration is assessing the overarching issues facing us 
in the Arctic, including those associated with impacts of climate 
change, increased human activity, new or additional information needs, 
and conservation of Arctic resources. This approach will necessarily 
include identifying any implementation issues associated with the 
Arctic policy defined by the previous Administration. Additionally, the 
Coast Guard will soon report out the findings of their 2009 High 
Latitude Study. These assessments and inputs will enable the 
Administration to better understand the role of icebreakers in the 
Arctic and to address specific operational issues in 2011.

Q5.  You testify that funding for the Environment, Health and Safety 
(EHS) and Education and Societal Dimensions (ESD) program component 
areas (PCA) of the National Nanotechnology Initiative are getting 
significant increases in FY 2010. How do these increases impact funding 
for the other, and equally important, six PCAs?

A5. The funding by PCA reported by the agencies reflects the collective 
areas of relevant emphasis at the agency level. Funding level changes 
in one PCA do not necessarily imply zero-sum changes in one or more of 
the others. The increases for nanotechnology-related environmental, 
health, and safety research as well as education and societal 
dimensions support essential components of the overall National 
Nanotechnology Initiative. The balance of funding across PCAs supports 
synergistic and integrated R&D to most effectively advance 
nanotechnology innovation. For example, the funding requested for FY 
2010 for programs whose primary purpose is to understand and address 
potential risks to health and to the environment posed by 
nanotechnology is up nearly 30 percent over 2008 actual expenditures. 
(These funding figures do not include substantial research on 
instrumentation and metrology and on fundamental interactions of 
nanomaterials with biological systems represented in other PCAs.) 
Research under these PCAs is also critical for conducting and informing 
toxicological research. Such consistent and integrated support for 
research is essential for achieving the economic and societal benefits 
of applied nanotechnology.

Questions submitted by Representative Vernon J. Ehlers

Q1.  In the hearing, you mentioned that education was being funding 
throughout NSF and not just in the Education and Human Resources 
Directorate. However, the rate of requested funding within EHR is 
substantially lower when compared with the rest of the agency (1.5 
percent vs. 8.5 percent). Could you please detail how the 
disproportionate increase will be reconciled by education funding in 
the other directorates? Also, OSTP-prepared tables indicate that total 
STEM education funding across the federal agencies will only increase 
by 2.7 percent in FY 2010. This sends a message inconsistent with the 
Administration's strong language about support for STEM Education. 
Could you please help me understand why STEM Education receives only an 
inflationary increase in funding?

A1. NSF is committed to integrating education into its full range of 
activities. There are substantial increases in science and math 
education programs across NSF; the increase for programs included in 
the Foundation's agency-wide ``learning'' strategic plan goal is 7.3 
percent, to $962 million. The 1.5 percent increase mentioned in the 
question is only for NSF's Education and Human Resources Directorate 
budget. NSF has also allocated an additional $262 million in Recovery 
Act funding to NSF's ``learning'' programs. This Recovery Act funding 
alone represents a 31 percent increase over 2008 levels.

Q2.  The NSF budget detail shows that ``K-12 Education Programs'' will 
drop 4.7 percent compared to FY09 enacted. I am very concerned this 
reflects a focus on exclusively graduate education. Please explain why 
K-12 programs at NSF will receive sufficient funding in FYIO while 
suffering an almost five percent decrease.

A2. OSTP believes that NSF K-12 programs are sufficiently funded in the 
2010 Budget at $57 million. Although there is an apparent decrease of 
4.7 percent in the 2010 Budget compared to 2009 Enacted, these programs 
also received $25 million in the Recovery Act, an infusion of funds 
exceeding 50 percent of 2008 funding. We also note that the $57 million 
for K-12 programs in the 2010 Budget is 21 percent greater than the 
2008 funding level.

</pre></body></html>
